                                                       Table of Contents
IG’S MESSAGE FOR THE CONGRESS
    Foreword                                                                                   1
    Major Challenges for the Department                                                        4
           Successfully implement a Department-wide financial management system                5
           Strengthen Department-wide information security                                     6
           Successfully transition USPTO to a performance-oriented organization                8
           Increase international compliance with trade agreements and expand market access
               for American exporters                                                         10
           Enhance export controls for dual-use commodities                                   11
           Increase the effectiveness of fishery management                                   13
           Continue to improve the Department’s strategic planning and
               performance measurement in accordance with GPRA                                14
           Strengthen financial management controls to maintain a “clean”
               opinion on the Department’s consolidated financial statements                  15
           Successfully implement acquisition reform initiatives                              16
           Ensure effective management of major facilities renovation and construction
           projects                                                                           18
   Update on a Former Top 10 Challenge                                                        20
   Charting Our Course for the Twenty-First Century                                           23

DEPARTMENT OF COMMERCE ORGANIZATION CHART                                                     24

AGENCY OVERVIEWS                                                                              25
     Bureau of Export Administration                                                          25
     Economic Development Administration                                                      27
     Economics and Statistics Administration                                                  36
     International Trade Administration                                                       40
     National Oceanic and Atmospheric Administration                                          43
     National Telecommunications and Information Administration                               52
     Technology Administration                                                                56
     Departmental Management                                                                  59

INVESTIGATIVE HIGHLIGHTS                                                                      77

OFFICE OF INSPECTOR GENERAL                                                                   81

REPORTING REQUIREMENTS                                                                        82

STATISTICAL HIGHLIGHTS                                                                        86

TABLES AND APPENDIXES                                                                         87

DEFINITIONS: TYPES OF OIG REVIEWS                                                             97

ACRONYMS                                                                                      98

OIG ORGANIZATION CHART AND POINTS OF CONTACT                                 (Inside Back Cover)
                                                                                             IG’s Message for the Congress


                                                                 MAJOR CHALLENGES
                                                                FOR THE DEPARTMENT
Major Challenges for the Department




                                      This section highlights the Top 10 Management Challenges that faced the Department at the close of this
                                      semiannual period. We view these issues as Commerce’s challenges because they meet one or more of the
                                      following criteria: They are important to the Department’s mission or the nation’s well-being; they are
                                      complex; they involve sizable expenditures; or they require significant management improvements. Given
                                      the diverse nature of Commerce activities, many of these issues cut across bureau and program lines. We
                                      believe that by addressing these challenges the Department can enhance program effectiveness; eliminate
                                      serious operational problems; decrease fraud, waste, and abuse; and achieve substantial savings.




                                                                     Top 10 Management Challenges
                                               1.     Successfully implement a Department-wide financial management
                                                      system.

                                               2.     Strengthen Department-wide information security.

                                               3.     Successfully transition the U.S. Patent and Trademark Office to a
                                                      performance-oriented organization.

                                               4.     Increase international compliance with trade agreements and expand
                                                      market access for American exporters.

                                               5.     Enhance export controls for dual-use commodities.

                                               6.     Increase the effectiveness of fishery management.

                                               7.     Continue to improve the Department’s strategic planning and
                                                      performance measurement in accordance with the Government
                                                      Performance and Results Act.

                                               8.     Strengthen financial management controls to maintain a
                                                      “clean” opinion on the Department’s consolidated financial
                                                      statements.

                                                9.    Successfully implement acquisition reform initiatives.

                                               10.    Ensure effective management of major facilities renovation and
                                                      construction projects.


                                      Commerce OIG Semiannual Report                         4                                   September 2001
   IG’s Message for the Congress

   Successfully Implement a                              to be followed by implementation for most
   Department-Wide Financial                             operating units cross-serviced by NIST, the
   Management System                                     National Oceanic and Atmospheric
                                                         Administration, and the National Institute of




                                                                                                               Major Challenges for the Department
   The Department has spent nearly 7 years and an        Standards and Technology. The Census pilot was
   estimated $150 million developing the Commerce        completed in June 1998. An independent review
   Administrative Management System (CAMS). It           of the pilot concluded that the CAMS accounting
   plans to spend an additional $92 million over the     software could support federal accounting and
   next 2 years to complete the system. Considerable     management functions and was as good as or
   work remains before the Department is in              better than other federal accounting packages
   compliance with OMB Circular A-127, which             available at that time.
   requires federal agencies to have a single,
   integrated financial management system with           CAMS is now the official accounting system for
   standard information and electronic data exchange     the Census Bureau and the operating units cross-
   formats. Without this capability, federal agencies    serviced by NIST, which include the Office of the
   have difficulty managing financial resources;         Secretary, Office of Inspector General, Office of
   protecting federal assets; and providing timely,      Computer Services, Economic Development
   reliable, and consistent information to decision-     Administration, Minority Business Development
   makers and the public.                                Agency, Economics and Statistics Administration,
                                                         and the Bureau of Economic Analysis. The
   When planning for CAMS began in 1992,                 Department-wide financial database is scheduled
   Commerce’s financial systems were outdated and        for completion in time to produce legally required
   fragmented, could not provide reliable financial      consolidated financial reports by the end of this
   information, and did not comply with federal          calendar year.
   financial management requirements. In December
   1994, the Department contracted for an off-the-       The cureent plan is to complete implementation of
   shelf accounting software package and related         CAMS at NOAA by October 2002, at which
   implementation and administrative services.           time it will begin cross-servicing the Bureau of
                                                         Export Administration. NIST will complete
   In 1997, after the vendor had difficulty modifying    implementation a year later when it adds the
   its accounting software to meet Commerce’s            National Telecommunications and Information
   requirements, the Department took responsibility      Administration to the list of agencies it cross-
   for the package and hired a new contractor to         services. By October 2003, Commerce expects
   complete the modifications. In 1998, to address       all of its operating units to be using financial
   continuing cost growth and schedule delays, the       management systems that comply with federal
   Department reviewed the CAMS program and              requirements and integrate with the Department-
   decided to initially implement a reduced set of       wide financial database. Twelve units will use
   core functions, revise the implementation strategy,   CAMS. The remaining three—the International
   and reorganize the project management structure.      Trade Administration, U.S. Patent and Trademark
                                                         Office, and the National Technical Information
   The revised strategy called for pilot                 Service—will be cross-serviced by the
   implementation of CAMS at the Census Bureau,          Department of Interior; however, ITA and NTIS
                                                         are exploring alternatives.
Commerce OIG Semiannual Report                            5                                   September 2001
                                                                                                     IG’s Message for the Congress

                                      In our March 2001 semiannual report, we               2.        The use of performance-based contracting
                                      expressed concern about the Department’s ability                needs to be substantially increased.
                                      to (1) manage CAMS development and
                                      maintenance, (2) complete the Commerce-wide           3.        Price and cost analysis must be
Major Challenges for the Department




                                      financial database in a timely manner, and                      documented.
                                      (3) determine the efficiency and economy of
                                      operating CAMS at four locations. During this         4.        Communications with and training of
                                      semiannual period, we found that the Department                 contract technical representatives at the
                                      has addressed some of these concerns. It has                    operating units need improvement.
                                      assigned liaisons to work with the operating units,
                                      taken responsibility for defining Department-wide     5.        The appearance that CAMS contracts are
                                      financial reporting requirements and year-end                   personal service contracts must be
                                      closing procedures, and instituted a study of best              avoided.
                                      practices for CAMS operations and maintenance.
                                                                                            See page 69 for more details on these findings.
                                      Also, the Deputy Chief Financial Officer and
                                      Assistant Secretary for Administration substituted    During the next semiannual period, we plan to
                                      a commercial off-the-shelf software package for a     further review and report on the status and
                                      custom-coded application, which meets the             management of the CAMS program. Until the
                                      requirements for the Department-wide financial        Department’s financial management systems
                                      database without utilizing scarce resources at the    comply with Office of Management and Budget
                                      CAMS Support Center. Although this major              requirements, CAMS will continue to warrant the
                                      strategy change came late, the Department             close attention of senior Department officials and
                                      believes the project is on schedule.                  our office.

                                      During this semiannual period, we also completed
                                      a review of CAMS contracting at the Support           Strengthen Department-Wide
                                      Center, specifically focusing on the contracts for    Information Security
                                      system development, implementation, and
                                      administration. We found that contract
                                                                                            Information security is vital to Commerce: The
                                      management has improved steadily since late
                                                                                            Department operates many complex computer
                                      1999, when it was reassigned to NOAA’s
                                                                                            systems that provide essential public services and
                                      Systems Acquisition Office. However, we also
                                                                                            support critical mission activities, such as provision
                                      found the following:
                                                                                            of the nation’s weather forecasting services;
                                                                                            stewardship of the environment; and promotion of
                                      1.      The lack of clarity in the base contract
                                                                                            trade and economic growth, scientific research,
                                              hampers the ability of contract
                                                                                            and technological development. Weaknesses in
                                              administration and program offices to
                                                                                            information security throughout Commerce have
                                              effectively administer the contract and
                                                                                            prompted us to identify this problem as a top
                                              monitor results.
                                                                                            management challenge.



                                      Commerce OIG Semiannual Report                             6                                      September 2001
    IG’s Message for the Congress


   During this semiannual period, the Inspector                  Information Officer (see March 2001
   General testified at a hearing before the                     issue, page 69).
   Subcommittee on Oversight and Investigations,




                                                                                                                Major Challenges for the Department
   House Committee on Energy and Commerce,               ¬       Implementation of the Critical
   about Department-wide information security                    Infrastructure Protection Program (see
   weaknesses. At the same hearing, the General                  September 2000 issue, page 75).
   Accounting Office described its penetration testing
   of information systems and networks based in          ¬       The general controls associated with the
   Commerce headquarters, noting pervasive                       information technology (IT) processing
   weaknesses that place sensitive systems at serious            environment at various operating units,
   risk. The Deputy Secretary of Commerce                        conducted as part of our FY 2000
   discussed information security improvements that              financial statements audits (see March
   the Department is undertaking.                                2001 issue, page 72).

   Under the Government Information Security             ¬       The use of persistent “cookies” and “web
   Reform Act (GISRA), each federal agency must                  bugs” on departmental Internet sites (see
   review its information security program annually,             page 62 of this report).
   and each OIG must perform an annual
   independent evaluation of that review. Both of        ¬       Security of the Census Bureau’s Advance
   these assessments were to be included in the FY               Retail Sales Principal Federal Economic
   2003 budget materials transmitted to OMB.                     Indicator (see page 36 of this report).
   However, the U.S. Patent and Trademark Office
   submitted its budget materials and information        We determined that the Department is striving to
   security review separate from the Department’s:       improve information security and make it an
   USPTO has the freedom to do so under the              integral component of Commerce’s business
   American Inventors Protection Act of 1999,            operations. Nevertheless, we concluded that
   which gives it greater independence and flexibility   because information security has not received
   to meet federal mandates. We submitted the same       adequate attention in the past, substantial efforts
   evaluation for both USPTO and the Department          are required to develop and oversee an effective
   because it addresses issues associated with           security program. Certain fundamental
   Commerce as a whole. Since USPTO is                   responsibilities are frequently not carried out.
   undertaking its own actions to manage information     These include identifying, assessing, understanding,
   security, we will review its program separately       and promoting awareness of the risks related to
   next year.                                            the Department’s IT assets; determining
                                                         appropriate levels of security; planning,
   Our first evaluation under GISRA was based on         implementing, and testing controls that adequately
   OIG reviews and audits of information security        address risk; and continually monitoring the
   issues conducted during the past 2 years (including   effectiveness of information security policies and
   this semiannual period), as follows:                  practices.

   ¬       The Department’s information security         Our review of the use of Internet cookies and web
           program functions assigned to the Chief       bugs, conducted during this semiannual period,
Commerce OIG Semiannual Report                            7                                    September 2001
                                                                                                IG’s Message for the Congress


                                      was mandated by Public Law 106-554. This act            efficiency and integrity of government programs
                                      requires OIGs to examine whether federal Internet       and operations —the higher the level, the greater
                                      sites use devices that collect information about any    the risk.)
Major Challenges for the Department




                                      individual’s access or viewing habits, and to report
                                      their findings to the Congress. We found that           We noted that these security weaknesses stem
                                      only a few of the Department’s Internet sites were      from a lack of guidance on how to determine risk
                                      using cookies or web bugs. We also found that           levels and conduct associated background checks
                                      the privacy statements on many Commerce sites           from the Department’s Office of Human
                                      failed to include all the information required by the   Resources Management and Office of Security.
                                      Department’s privacy policy. Commerce’s Chief           We became concerned that other operating units
                                      Information Officer agreed with our                     may be assigning inappropriate risk levels and
                                      recommendations for addressing these issues,            performing inadequate checks as well. So we
                                      took immediate actions to eliminate the use of          addressed these problems in an evaluation of the
                                      cookies, and began working to eliminate web             Department-wide program for designating
                                      bugs. (See page 62.)                                    positions according to their risk and sensitivity.
                                                                                              The Department has accepted and begun to
                                      Because of the importance and sensitivity of the        implement our recommendations for strengthening
                                      Advance Retail Sales economic indicator, we             this program. (See page 63.) At the same time,
                                      reviewed the processes used by ESA and the              ESA and Census are shoring up their own
                                      Census Bureau to prepare and release this data.         processes for assigning risk and conducting
                                      Our concern was whether adequate internal               background checks.
                                      controls are in place to prevent the premature or
                                      unauthorized disclosure or use of the data. We          In the next semiannual period, we will plan and
                                      found appropriate controls in some areas, but           begin conducting evaluations for next year’s
                                      found other areas in which controls needed              reporting under GISRA. We will also share the
                                      strengthening, such as guidance for personnel           results of our ongoing evaluation of the Office of
                                      access to offices while the indicator is being          Security’s information security functions that are
                                      prepared, monitoring of changes to application          associated with classified systems.
                                      software, and use of auditing software. ESA and
                                      the Census Bureau are taking steps to implement
                                      our recommendations for improving these matters.        Successfully Transition USPTO
                                      (See page 36.)                                          to a Performance-Oriented
                                                                                              Organization
                                      This review also revealed that appropriate
                                      background investigations had not been conducted        The American Inventors Protection Act of 1999
                                      on some ESA and Census employees who have               established the U.S. Patent and Trademark Office
                                      advance knowledge of sensitive information, and         as a performance-oriented organization, giving it
                                      that risk levels associated with their positions have   greater flexibility and independence to operate
                                      not been properly assigned. (Levels of risk             more like a business. As such, USPTO has
                                      correlate to the potential harm an individual in a      greater responsibility for managing its operations
                                      position of public trust could cause to the             and expanded control over its budget allocations

                                      Commerce OIG Semiannual Report                             8                                     September 2001
    IG’s Message for the Congress


   and expenditures, personnel decisions and              and in hiring additional administrative judges to
   processes, and procurement operations.                 hear appeals. As a performance-oriented
                                                          organization, USPTO will have greater flexibility




                                                                                                                   Major Challenges for the Department
   Despite the act’s potential benefits, the              to design incentives to attract and retain these
   transformation it allows is a formidable one.          highly skilled employees. USPTO management
   USPTO must develop the necessary personnel,            believes that the operating unit will be able to
   procurement, and administrative policies, as well      manage its resources more efficiently and to make
   as performance-oriented processes and standards        the quick decisions required to process patent and
   for evaluating cost-effectiveness, while meeting its   trademark filings and appeals in a timely yet high-
   performance goals under the Government                 quality manner.
   Performance and Results Act (GPRA) and the
   timeliness standards of the American Inventors         Managing construction of new facility. As it
   Protection Act. USPTO management views the             moves through this transition, USPTO, along with
   passage of the act and the successful transition to    the General Services Administration, must oversee
   a performance-oriented organization as critical to     one of the largest real estate ventures that the
   the operating unit’s success at addressing other       federal government will undertake this decade—
   challenges identified by OIG in recent years, as       the construction of USPTO’s new 2.4 million-
   described below.                                       square-foot office complex in Alexandria, Virginia.
                                                          When completed in 2005, the 5-building complex
   Meeting staffing needs to handle increases in          will provide space for USPTO employees and
   patent activity. The number of patent application      operations currently scattered among
   filings has skyrocketed in recent years, leading       approximately 18 buildings in nearby Crystal City.
   USPTO to hire hundreds of new patent                   Now that GSA has awarded the construction
   examiners and administrative judges. Trademark         contract, USPTO must aggressively hold the line
   filings, on the other hand, have been on the           on project costs and stay within the legislatively
   decline. In FY 2000, for example, USPTO                mandated cap on the cost of completing the build-
   received more than 326,000 applications for            out of the building’s interior.
   patents—an increase of 12 percent over
   FY 2000. However, 296,000 trademark requests           Maintaining state-of-the-art information
   were received in FY 2001, a decrease of 21             technology capabilities. USPTO continues to
   percent. To address the expanding workload of          face significant challenges in delivering essential IT
   patent applications, USPTO hired 789 patent            capabilities. The American Inventors Protection
   examiners, but lost 706 through attrition during       Act requires greater operational efficiency, further
   FY 2000 and 2001. In this same period, USPTO           intensifying the demands placed on IT solutions
   hired 134 trademark examiners, but lost 112            and USPTO’s ability to develop new and upgrade
   through attrition.                                     existing systems. OIG’s earlier evaluation of
                                                          USPTO’s new search system found flaws in its
   Our prior audits of the Office of Patent               system development process (see March 2001,
   Publications and the Board of Patent Appeals and       page 54). USPTO agreed that improvements
   Interferences reported on some of the challenges       were needed and is implementing our
   facing USPTO in recruiting and training examiners      recommendations. USPTO will have to
                                                          continually evaluate and improve its system
Commerce OIG Semiannual Report                             9                                      September 2001
                                                                                             IG’s Message for the Congress


                                      development process to deliver essential IT          appropriate. In addition to the activities
                                      capabilities efficiently and economically.           coordinated by the center, a substantial amount of
                                                                                           market access and trade compliance work is
Major Challenges for the Department




                                                                                           performed by ITA’s other operating units. Overall,
                                      Increase International Compliance                    ITA’s approach to trade compliance and market
                                      with Trade Agreements and Expand                     access is to solve problems quickly and at the
                                      Market Access for American                           lowest level possible—avoiding formal dispute
                                                                                           settlement structures such as the World Trade
                                      Exporters
                                                                                           Organization, which can take years to resolve
                                                                                           cases.
                                      To compete effectively in today’s global
                                      marketplace, U.S. companies need help                On the import side, unfair foreign pricing and
                                      addressing unfair trade practices or violations of   government subsidies can disrupt the free flow of
                                      trade agreements, inadequate intellectual property   goods and adversely affect U.S. companies’
                                      protection, and other barriers to the export of      global competitiveness. ITA’s Import
                                      U.S. goods and services. Commerce must               Administration (IA) works with the International
                                      ensure that its trade compliance and market          Trade Commission to enforce the nation’s
                                      access efforts adequately serve U.S. companies       antidumping and countervailing duty laws. IA
                                      by expanding trade and opening world markets,        investigates complaints from U.S. industries
                                      and by eliminating unfair competition from imports   regarding foreign producers and governments to
                                      priced at less than fair market value.               determine whether dumping or subsidization has
                                                                                           occurred and, if so, to what extent. The
                                      Commerce, through various International Trade        commission determines whether U.S. industry is
                                      Administration offices, works with the Office of     suffering material injury as a result of the dumped
                                      the U.S. Trade Representative, the Departments       or subsidized products. If both agencies
                                      of State and Agriculture, and numerous other         determine that dumping and injury have occurred,
                                      federal agencies to monitor and enforce trade        IA instructs the U.S. Customs Service to assess
                                      agreements. The number and complexity of             duties against imports of those products.
                                      agreements have increased substantially in recent
                                      years.                                               In January 2001, GAO identified monitoring and
                                                                                           enforcement of trade agreements as major
                                      To help in its compliance efforts, ITA created the   management issues for Commerce, citing two main
                                      Trade Compliance Center in 1996. The center          reasons: (1) the Department’s shortage of qualified
                                      monitors U.S. trade agreements and reviews           staff who possess the expertise to monitor
                                      complaints from a variety of sources. When           compliance with trade agreements, and (2) its
                                      warranted, it forms a compliance team to bring a     difficulty interfacing with and getting support from
                                      case to satisfactory conclusion. Team members        other federal agencies and the private sector
                                      are drawn from center staff and other ITA            regarding trade agreements.
                                      operating units including Market Access and
                                      Compliance, Trade Development, U.S. and              The Secretary of Commerce has taken steps to
                                      Foreign Commercial Service, and other offices, as    address the concerns of both the Congress and

                                      Commerce OIG Semiannual Report                         10                                    September 2001
    IG’s Message for the Congress


   GAO by making monitoring and enforcement of               government’s export licensing and enforcement
   trade agreements a top priority for ITA and for the       system for dual-use commodities (goods and
   Department as a whole. Commerce received                  technologies that have both civilian and military




                                                                                                                    Major Challenges for the Department
   additional funding for trade compliance activities in     uses).
   FY 2001, under the administration’s Compliance
   Initiative.                                               Strengthening the dual-use export licensing and
                                                             enforcement process requires new, comprehensive
   Based on our work to date, we agree that a more           legislative authority to replace the expired Export
   coordinated federal effort is needed to improve           Administration Act of 1979 and appropriately
   compliance. Our recent review of ITA’s trade              address current export control needs and realities.
   agreement compliance process, as managed by               Passed during the Cold War, the Export
   the Trade Compliance Center, found that ITA               Administration Act sought to prevent the export of
   needs to enhance its coordination and tracking of         critical goods and technologies to Communist bloc
   trade compliance and market access activities.            countries. In today’s political climate, rogue
   The results of this review will be described in our       countries and terrorist groups seeking weapons of
   next semiannual report.                                   mass destruction and the systems to deliver them
                                                             pose new threats to U.S. national security and
   We intend to review various aspects of ITA’s              foreign policy goals. Legislation is needed to
   approach to market access and trade compliance,           address these threats, as well as to bolster BXA’s
   as well as key import administration issues. In the       regulatory authority, stiffen penalties, and
   meantime, ITA must work closely with U.S.                 demonstrate America’s commitment to maintaining
   companies and other federal agencies to identify          strong export controls while encouraging other
   trade compliance problems, develop workable               countries to do the same.
   solutions to them, and thus enhance American
   firms’ access to foreign markets.                         Given the importance of export controls to national
                                                             security, we have devoted considerable attention to
                                                             the challenges facing BXA. Specifically, we
   Enhance Export Controls                                   responded to a request from the Senate
                                                             Governmental Affairs Committee to follow up on a
   for Dual-Use Commodities
                                                             1993 interagency OIG review of the export
                                                             licensing process: along with the OIGs from the
   The adequacy of export controls is an ongoing             Central Intelligence Agency and the Departments of
   concern, especially in light of September 11.             Defense, Energy, State, and Treasury, we issued a
   Opinions vary on how well the government’s                special interagency report in June 1999 on the
   export control policies and practices balance the         export licensing process for dual-use commodities
   need to protect U.S. national security and foreign        and munitions.
   policy interests with the desire to promote U.S.
   trade opportunities and competitiveness. Striking         Subsequently, the National Defense Authorization
   this balance is a significant challenge for the parties   Act for Fiscal Year 2000 directed the same six
   involved, particularly for Commerce’s Bureau of           OIGs to report to the Congress by March 30,
   Export Administration, which oversees the federal         2000, and annually until the year 2007, on the

Commerce OIG Semiannual Report                               11                                    September 2001
                                                                                                IG’s Message for the Congress


                                      adequacy of export controls and counter-                to as deemed exports. The Bureau must also improve
                                      intelligence measures to prevent the acquisition of     its management of the list of controlled dual-use
                                      sensitive U.S. technology and technical information     commodities and technologies, known as the
Major Challenges for the Department




                                      by countries and entities of concern. In addition,      Commerce Control List. We have recommended that
                                      the legislation requires the OIGs to describe in        BXA make the list more user-friendly, improve the
                                      their semiannual reports the status or disposition of   timeliness with which it implements agreed-upon
                                      recommendations made in earlier reports                 multilateral changes to the list, and address the
                                      submitted in accordance with the act. To date, we       inappropriate use of national security controls on some
                                      have completed two additional reviews of export         items.
                                      controls in compliance with the act and are
                                      currently working on a third.                           Furthermore, we have several concerns about the
                                                                                              overall effectiveness of the interagency Committee on
                                      Overall, we found the licensing of U.S. dual-use        Foreign Investment in the United States (CFIUS), as
                                      exports to be a balanced multiagency                    follows:
                                      collaboration among Commerce, Defense, Energy,
                                      State, Justice, and the CIA that attempts to bring      ¬       The lack of mandatory foreign investment
                                      divergent policy views and information to bear on               reporting.
                                      the decision-making process. In addition, we
                                      found that the four-level escalation process for        ¬       The low number of investigations conducted
                                      resolving license disputes among the referral                   on company filings.
                                      agencies was working relatively well.

                                      While our assessments have identified significant
                                      improvements in export controls since 1993, we
                                      have also found weaknesses in licensing                                  CFIUS Membership
                                      procedures. First, commodity classification and
                                                                                                           Department of the Treasury
                                      jurisdiction processes are not timely and do not                        (Committee Chair)
                                      clearly specify the role of each agency. Second,                     Department of Commerce
                                      the intelligence community does not review all                       Department of Defense
                                      dual-use export license applications or consistently                 Department of Justice
                                      conduct a comprehensive analysis of applications                     Department of State
                                      it does review, and license applications are not                     Office of Management and Budget
                                      screened against a key database maintained by the                    U.S. Trade Representative
                                      U.S. Customs Service. Third, there are some                          Director of the Office of Science
                                      recurring problems with BXA’s monitoring of                               and Technology Policy
                                      licenses that have reporting requirements.                           Chairman of the Council
                                                                                                                 of Economic Advisors
                                                                                                           Assistant to the President
                                      In addition, BXA needs to clarify licensing policy                        for Economic Policy
                                      and regulations regarding the release of controlled                  Assistant to the President
                                      technology to foreign nationals working in federal                       for National Security Affairs
                                      and private research facilities—commonly referred

                                      Commerce OIG Semiannual Report                            12                                   September 2001
    IG’s Message for the Congress


   ¬       The role of Treasury in overseeing CFIUS    Increase the Effectiveness
           activities.                                 of Fishery Management




                                                                                                              Major Challenges for the Department
   ¬       The division of responsibilities between    The primary mission of NOAA’s National Marine
           BXA and ITA for the CFIUS program           Fisheries Service (NMFS) is to protect and
           within Commerce.                            preserve living marine resources through scientific
                                                       research, fisheries management, law enforcement,
   The interagency OIG review team has agreed to       and habitat conservation. Ensuring healthy stocks
   conduct an in-depth examination of the              of fish and other marine animals in the coastal
   Committee’s effectiveness as part of its future     waters beyond each state’s jurisdiction is a federal
   work under the National Defense Authorization       responsibility carried out principally by NMFS
   Act.                                                and eight regional fishery management councils
                                                       under the Magnuson-Stevens Fishery
   Currently, we are evaluating BXA’s efforts to       Conservation and Management Act of 1976, as
   upgrade its automated licensing and enforcement     amended.
   systems. This improvement is an important one
   for the Department because BXA needs a more         NMFS and the councils track the condition of
   efficient system for processing export license      marine species, determine the levels of catch that
   applications. It also needs to coordinate its       will provide the greatest benefit to the nation, and
   system development efforts with other export        gauge the economic impact of fishery regulations
   licensing agencies. In addition to our review of    and policies. Measures to manage various species
   Commerce’s system, the interagency OIG review       are generally developed by the councils, reviewed
   team is looking at the various automated export     by NMFS, and subject to approval by the
   licensing systems maintained by these other         Secretary of Commerce. These measures are
   agencies to determine how the systems interact      often controversial because they impose quotas on
   and whether it is feasible to develop a single      fishing that simultaneously affect the survival of a
   federal automated export licensing network.         species and the economic health of the fishing
                                                       industry and many coastal communities.
   The challenges for BXA, as well as for the
   administration and the Congress, remain (1) the     NMFS is also responsible for the recovery of
   passage of a new Export Administration Act,         species protected under the Endangered Species
   (2) the targeting of federal licensing and          Act of 1973, including anadromous species, such
   enforcement efforts on those exports that present   as salmon, which migrate between the ocean and
   the greatest proliferation and national security    inland waterways. NMFS plays a central role in
   risks, and (3) the streamlining or elimination of   the Northwest Salmon Recovery Effort—a
   controls that unnecessarily hamper trade. We will   combined response by various federal agencies,
   continue to monitor BXA’s efforts to improve        state and tribal governments, and other
   dual-use export controls through the annual         organizations to restore salmon runs in the
   reviews required by the National Defense            Columbia River Basin.
   Authorization Act.



Commerce OIG Semiannual Report                         13                                    September 2001
                                                                                              IG’s Message for the Congress


                                      In its Federal Columbia River Power System 2000     data. Like other federal agencies, the Department
                                      Biological Opinion, NMFS set performance            faces the challenge of producing such data that is
                                      standards and recovery actions that guide           accurate, appropriate, reliable, and useful.
Major Challenges for the Department




                                      operations of 29 federally owned dams. These
                                      requirements are incorporated in the broader        Commerce is operating under its second strategic
                                      Basinwide All-H Salmon Recovery Strategy issued     plan, covering FY 2000 to FY 2005. Earlier this
                                      by the Federal Caucus—the nine federal agencies     year, the Department published its fourth Annual
                                      that have responsibilities for natural resource     Performance Plan, which outlined goals for
                                      management under the Endangered Species Act.        FY 2002, and its second Annual Program
                                      This strategy covers areas essential to recovery—   Performance Report, which detailed performance
                                      harvest, hatcheries, hydropower, and, most          outcomes for FY 2000.
                                      important, habitat.
                                                                                          OIG has been involved with Commerce’s efforts
                                      NMFS will assess implementation in each of these    to implement GPRA since 1997 and has taken the
                                      areas and periodically review whether the           following steps to help ensure the collection and
                                      basinwide strategy of improvements, research, and   reporting of reliable performance information to
                                      evaluation is meeting performance standards to      decision-makers:
                                      halt species decline within 10 years and enable
                                      population growth thereafter. If performance        ¬      Provided implementation advice and
                                      standards are not met, the Federal Caucus intends          assistance.
                                      to accelerate recovery measures or consider new
                                      actions.                                            ¬      Monitored the limited review by certified
                                                                                                 public accounting firms of performance
                                      We are currently assessing the NMFS Northwest              data contained in the annual financial
                                      Science Center’s role in supporting the Salmon             statements.
                                      Recovery Effort. In the future, we also plan to
                                      review NMFS’s stewardship role and related          ¬      Made presentations to departmental
                                      developments concerning the conservation of                officials on the importance of ensuring that
                                      fisheries for which it is responsible under the            performance-related information is
                                      Magnuson-Stevens Act.                                      reliable.

                                                                                          ¬      Provided informal comments to the
                                      Continue to Improve the                                    Department on various GPRA-related
                                      Department’s Strategic Planning                            documents.
                                      and Performance Measurement in
                                      Accordance with GPRA                                ¬      Audited internal controls for selected data
                                                                                                 on operating unit performance.

                                      Sound oversight of federal programs by the          We believe the Department continues to progress
                                      Congress and agency managers requires relevant      toward meeting the challenge of how best to plan
                                      performance measures and credible performance       and measure its performance. GAO concurs with

                                      Commerce OIG Semiannual Report                        14                                   September 2001
   IG’s Message for the Congress


   our opinion: It reported in June 2001 that            Strengthen Financial Management
   Commerce’s FY 2000 Annual Program                     Controls to Maintain a “Clean”
   Performance Report and FY 2002 Performance
                                                         Opinion on the Department’s




                                                                                                                Major Challenges for the Department
   Plan are significantly better than those from
   previous years. However, GAO noted that               Consolidated Financial Statements
   weaknesses in performance measurement
   processes make it difficult to determine whether      The Chief Financial Officers Act of 1990, the
   Commerce is moving closer to achieving certain        Government Performance and Results Act of
   key goals.                                            1993, the Government Management Reform Act
                                                         of 1994, and the Federal Financial Management
   With passage of the Reports Consolidation Act of Improvement Act of 1996 were designed to
   2000, the Congress also demonstrated its interest improve financial management and accountability
   in the value of performance information. This act     in the federal government. These statutes require,
   requires an assessment by the Secretary of            among other things, the preparation and audit of
   Commerce of the completeness and reliability of       agency financial statements that present an entity’s
   performance information in reports containing such financial position and results of operations, as well
   data. We worked with the Department to ensure         as other information needed by the Congress,
   that its FY 2000 Accountability Report included a agency executives, and the public to assess
   statement that properly noted the limited reliability management’s performance and stewardship. The
   of current performance information.                   audit report must state whether an agency’s
                                                         financial management systems comply substantially
   We will continue to monitor Commerce’s efforts to with federal requirements.
   implement GPRA, provide advisory comments on
   GPRA-related documents, and, where resources          The Department received its second unqualified
   permit, perform targeted reviews of GPRA-             (clean) opinion on its FY 2000 consolidated
   related issues. We have ongoing audits of             financial statements (see March 2001 issue, page
   performance measurement and reporting at NIST 71) despite continuing obstacles—including the
   and USPTO, which—like those conducted last            absence of a single, integrated financial
   year for BXA and NTIA—will recommend ways             management system. Despite substantial
   to improve such reporting and to strengthen           improvements in financial management, maintaining
   internal controls. Where warranted, we will           a clean audit opinion on Commerce’s consolidated
   continue to make recommendations to the               statements remains a major challenge. Further
   Department and its operating units regarding the      improvements are essential to enable the
   accuracy and reliability of performance data. We      Department and its reporting entities to correct the
   believe that while the Department has been            material weaknesses and other deficiencies
   responsive to past criticisms of its efforts to meet  identified in the audits of FY 2000 statements.
   GPRA requirements, it must continue to focus          Material weaknesses are serious flaws in the
   management’s attention on further improvements in design or operation of an internal control
   performance measurement and reporting.                component that increase the risk that errors, fraud,
                                                         or noncompliance in material amounts may occur
                                                         and not be readily detected.

Commerce OIG Semiannual Report                           15                                    September 2001
                                                                                               IG’s Message for the Congress


                                      The audits of the FY 2000 statements identified six    tools such as earned value and risk management
                                      material weaknesses, seven reportable conditions,      are also key features of acquisition reform efforts.
                                      and several instances of noncompliance with laws
Major Challenges for the Department




                                      and regulations. Of these, three material            As the Department of Commerce increases its
                                      weaknesses, three reportable conditions, and one     reliance on contractor-provided goods and
                                      instance of noncompliance were new matters.          services, the challenge of monitoring the
                                      This number of deficiencies is lower than in         effectiveness of the acquisition process grows as
                                      previous years, but still represents an obstacle the well. Each year, the Department spends more
                                      Department must overcome to avoid jeopardizing       than $1 billion, or about one-quarter of its
                                      future clean opinions.                               appropriation, through large contracts and other
                                                                                           procurement vehicles. Acquisition reform
                                      The Department recognizes the need for ongoing       legislation has attempted to ease the restrictive,
                                      efforts to create a financial management             time-consuming process by which the government
                                      environment that provides timely, accurate financial formerly purchased goods and services, as well as
                                      and performance information and complies with        reduce dollars spent, by making greater use of the
                                      federal laws and regulations, and it continues to    competitive marketplace. The challenge for
                                      focus on strengthening financial management          Commerce is to balance the desire to streamline
                                      controls. We have retained an independent            the procurement process with the need to ensure
                                      certified public accounting firm to audit the        that taxpayer dollars are wisely spent and that
                                      Department’s FY 2001 consolidated financial          applicable laws and regulations are followed.
                                      statements. We will discuss the findings of this
                                      audit in the March 2002 semiannual report.           The Federal Acquisition Streamlining Act of 1994
                                                                                           substantially revised federal procurement law,
                                                                                           encouraging the use of commercial items,
                                      Successfully Implement Acquisition                   performance-based service contracting, and past
                                      Reform Initiatives                                   performance as the major evaluation criterion for
                                                                                           awards. The act reduced paperwork and raised
                                      Acquisition reform is intended to reduce the time    the threshold for simplified acquisition procedures
                                      and money spent in purchasing needed goods and from $25,000 to $100,000. It also promoted use
                                      services. To accomplish this goal, reform            of the Internet for processing acquisitions, or
                                      initiatives (1) rely on performance-based service    e-procurement.
                                      contracting, (2) consider past performance in
                                      awarding contracts, and (3) make increased use of The Clinger-Cohen Act of 1996 combined two
                                      commercially available products. Experienced         other 1996 laws—the Federal Acquisition Reform
                                      acquisition teams with business management skills Act and the Information Technology Management
                                      are important components of these initiatives—not Reform Act. Clinger-Cohen provided for
                                      only do team members provide management              governmentwide acquisition reform, including
                                      expertise, but, because they are public servants,    repeal of the Brooks Act (which covered
                                      they are responsible for spending taxpayer dollars automated data processing procurements). It
                                      wisely and in accordance with applicable laws and shortened the time allowed for GAO to issue bid
                                      regulations. Performance-based measurement           protest decisions and prompted revision of the

                                      Commerce OIG Semiannual Report                           16                                     September 2001
                                                                                                                                              15
   IG’s Message for the Congress


   Procurement Integrity Act. It also emphasized          We continue to have concerns about service
   results-based acquisition and promoted life-cycle      contracting within the Department. In recent
   management of information technology as a capital      reports we have identified the problems of




                                                                                                                  Major Challenges for the Department
   investment.                                            inadequate use of performance-based service
                                                          contracting and the lack of security provisions in
   Although these laws aim to improve and streamline contracts for IT services. Improper use of task
   procurement practices, government oversight            order contracts, insufficient planning for contract
   organizations, such as GAO and OMB’s Office of administration and monitoring, and inadequate
   Federal Procurement Policy, along with the OIG         management of the purchase card program within
   community, continue to report problems with            the Department remain problematic.
   agencies’ implementation of reform initiatives. For
   example:                                               However, Commerce is actively implementing
                                                          various reform initiatives. Its Office of Acquisition
   ¬       GAO has reported problems with the use Management has automated the procurement
           of governmentwide agency contracts             process, emphasized career development of
           (GWACs), described weak internal               contracting employees, and partnered with the
           controls over some agencies’ use of the        Office of the Chief Information Officer and the
           purchase card, and highlighted                 Commerce budget office to integrate budgeting
           problematic federal procedures for the         and planning for IT acquisitions. It has taken steps
           acquisition of services.                       to provide oversight and performance
                                                          measurement of acquisition activities and has
   ¬       The Office of Federal Procurement Policy launched a risk management program to monitor
           has expressed concerns about GWACs as the effectiveness of the reform initiatives
           well as other multiple award contracts and Department-wide. For example, the risk
           service contracting, criticizing in particular management program will examine the results of
           many agencies’ lack of focus on results.       Acquisition Management’s recent review of the
           To address this latter concern, OMB has        procedures used by operating units to issue task
           directed all agencies to include in their FY and delivery orders under GSA Federal Supply
           2002 performance plans the goal of using       Schedules, other multiple award contracts, and
           performance-based methodology to               GWACS, and will share best practices. We will
           award a minimum of 20 percent of service continue to periodically assess the status of
           contracting dollars.                           Commerce’s efforts to implement acquisition
                                                          reform initiatives.
   Oversight agencies are also concerned about the
   human capital crisis occurring throughout the
   federal government and its potential impact on the
   acquisition workforce.




Commerce OIG Semiannual Report                             17                                    September 2001
                                                                                                IG’s Message for the Congress
Major Challenges for the Department




                                        Construction is under way for a new laboratory at the   Artist rendering of the new Patent and Trademark Office
                                        National Institute of Standards and Technology in       under construction in Alexandria, Virginia.
                                        Gaithersburg, Maryland. Source: NIST                    Source: Kidmore, Owings & Merrill LLP, Washington, D.C.



                                      Ensure Effective Management of                            ¬     NIST will continue its multimillion-dollar
                                      Major Facilities Renovation and                                 program to maintain existing laboratories
                                                                                                      in Gaithersburg, Maryland, and Boulder,
                                      Construction Projects
                                                                                                      Colorado, and construct a new
                                                                                                      laboratory in Gaithersburg, Maryland.
                                      In FY 2001, the Department identified plans for
                                      several major construction projects that will likely      ¬     USPTO’s billion-dollar plan to consolidate
                                      be subject to OIG monitoring and review:                        employees and operations in a single, new
                                                                                                      facility in Alexandria, Virginia, will be one
                                      ¬        NOAA has 16 renovation and                             of the largest real estate ventures
                                               construction projects scheduled or                     undertaken by the federal government in
                                               under way to ensure that its facilities                this decade.
                                               remain state of the art and thus fully
                                               support its missions of environmental            ¬     Commerce headquarters in Washington,
                                               monitoring and protection. These include               D.C., is scheduled to undergo complete
                                               modernization of the National Weather                  modernization.
                                               Service facilities in Alaska, the National
                                               Ocean Service’s Marine and                       ¬     The Census Bureau will construct two
                                               Environmental Health Research lab in                   buildings at its headquarters in Suitland,
                                               South Carolina, and the National Marine                Maryland, to provide employees with
                                               Fisheries Service lab in Hawaii.                       safe, modern facilities.



                                      Commerce OIG Semiannual Report                            18                                       September 2001
   IG’s Message for the Congress

                                Estimated Costs of Current
                             and Planned Construction Projects




                                                                                                                   Major Challenges for the Department
             Operating Unit                  Number                         Estimated Costs
                                             of Projects                     (in millions)


               NOAA                                  16                            $330-400

               NIST                                    1                                  235

               USPTO                                   1                                 1,200

           Office of the Secretary                     1                                  285

           Census Bureau                               1                                  340



                      Source: Commerce Office of Real Estate Policy and Major Programs




   We have added the critical challenge of effective         of major renovation and construction ventures
   renovation/construction management to our top 10          have demonstrated that up-front oversight—that is,
   list because of the numerous inherent risks               close monitoring during planning and
   involved in the Department’s planning and                 development—is essential. Detecting and
   management of large, costly, and complex capital          addressing potential problems during the
   improvement and construction projects.                    developmental stages rather than after a project’s
   Departmental leadership and OIG oversight are             completion saves untold time and money. For this
   needed to maximize Commerce’s return on its               reason, we plan to actively monitor the progress of
   investment in these projects. Past OIG reviews            some of the Department’s ongoing construction
                                                             projects.




Commerce OIG Semiannual Report                                19                                  September 2001
                                                                                                IG’s Message for the Congress



                                      UPDATE         ON A      FORMER TOP 10 CHALLENGE
Major Challenges for the Department




                                      Given the dynamics and complexity of Commerce           of the U.S. population that attempts to measure
                                      activities, we maintain the top 10 list on an ongoing   the undercount and overcount in the decennial and
                                      basis. As challenges are met or their significance is   determine whether a statistical adjustment is
                                      reduced, we remove them from the list and               needed. After examining A.C.E. results, the
                                      replace them with new ones. One former                  Bureau was unable to conclude that the adjusted
                                      challenge—relating to the decennial census—             data would be more accurate than the unadjusted
                                      continues to warrant management attention as            data. Therefore, in March 2001, the unadjusted
                                      planning begins for 2010.                               census counts were released to the states for use
                                                                                              in redistricting. Census subsequently reevaluated
                                                                                              the A.C.E. survey to determine if the adjusted data
                                      Increase the Accuracy and Control                       should be used for allocating billions of dollars in
                                      the Cost of the 2000 Decennial                          federal funds, but recommended using the
                                                                                              unadjusted data for this purpose as well. The
                                      Census: Applying Lessons Learned                        Bureau is currently evaluating A.C.E. to improve
                                      to Planning for 2010                                    its functionality for the next decennial.

                                      At an estimated cost of $6.5 billion, the 2000          During this semiannual period, we assessed the
                                      decennial was the most expensive ever. Yet the          Bureau’s management of two A.C.E. operations—
                                      Census Bureau believes that this decennial was          automated matching and person follow-up—to
                                      among its most successful, mainly because the           determine their efficiency and effectiveness in the
                                      percentage of questionnaires returned by mail           field.
                                      increased and the accuracy of the overall count
                                      improved over 1990.                                     Overall, we found that these two operations
                                                                                              worked well. Specifically, the percentage of
                                      The nation’s 22nd decennial census counted              persons matched by the automated process
                                      approximately 281 million people living in about        exceeded Bureau estimates, and person follow-up
                                      116 million housing units. An accurate population       was completed on time.
                                      count is enormously important to the Congress
                                      and the administration, as well as to state             However, we did find some problem areas: A
                                      governments and local communities because,              difference in the definition of group quarters used
                                      among other things, it determines how many              by A.C.E. and the decennial census may have
                                      seats each state will have in the House of              resulted in missed coverage by A.C.E.; A.C.E.
                                      Representatives, and it is used to develop state        requirements were not always defined; testing of
                                      redistricting plans and allocate federal funds.         the automated matching software was not
                                                                                              documented; information printed on person
                                      To assess the reliability of the 2000 population        follow-up forms was not sufficiently reviewed; and
                                      count, the Bureau conducted an Accuracy and             the quality assurance tracking of person follow-up
                                      Coverage Evaluation (A.C.E.)—a sample survey            at regional offices was too labor- and paper-

                                      Commerce OIG Semiannual Report                            20                                    September 2001
   IG’s Message for the Congress


   intensive. We suggested strategies to address         problems with the 1990 census might have
   these shortcomings. We will detail the Bureau’s       recurred.
   response to our recommendations in our next




                                                                                                                 Major Challenges for the Department
   semiannual report.                                    Early planning is particularly important for critical
                                                         operations, such as development of the Master
   The 2000 decennial involved a number of costly,       Address File (MAF) and the associated geographic
   complex, and high-risk operations. The obvious        information system known as TIGER (Topologically
   question for the next decennial is, can anything be   Integrated Geographic Encoding and Referencing).
   done to contain costs and minimize risks? We          We believe that MAF is the backbone of any
   believe the answer is yes, and we recently began      decennial, and have thus issued several reports on it
   identifying lessons learned over the last decade.     during the last decade. We were concerned about
   We plan to reexamine key aspects of the more          the accuracy and completeness of the address file,
   than 30 reports issued by our office on the 2000      especially the problem of duplicate addresses. We
   decennial. In particular, we will look at ways to     also noted that some TIGER maps were difficult to
   link the planning and funding cycles, develop a       work with, not appropriate for their intended use,
   more accurate address list and more capable           and in need of updating.
   mapping system, improve the management of
   information technology, enhance contracting and       We have also issued numerous reports on the
   program management capabilities, improve the          Bureau’s information technology management
   quality assurance of nonresponse follow-up            capabilities. Without exception, our IT-related
   results, increase response rates through paid         reports issued throughout the decade have
   advertising and other outreach efforts, and           recommended that the Bureau restructure its
   promote information technology security.              software development efforts to employ a rigorous
                                                         process and accepted engineering standards. We
   We believe that the lessons of the 2000 decennial     reported that the Bureau’s development approach
   can help Census contain the costs and minimize        was not based on standards for documenting and
   the risks of future decennials. For example, in the   reviewing software specifications and design;
   early 1990s, our office was concerned about the       performing rigorous, independent testing; and
   Bureau’s ability to gain funding for early planning   ensuring the uniform and effective use of
   of the 2000 decennial. Adequate funding and           development and evaluation methods and tools.
   responsible planning are closely linked because
   long lead times are needed to make design             Contracting for information technology has also
   changes, develop software, and procure and            been a problem. Before the 2000 decennial, the
   evaluate systems. By 1995, we were reporting          Bureau developed many of its large systems in-
   that mid-decade tests were insufficient and that      house. However, to improve efficiency, for the 2000
   planning was behind schedule, partly because of       census it contracted out the development of some
   inadequate funding and uncertainties about the        key systems. The Bureau’s acquisition of the
   overall design. If the Congress had not               system to capture data from census forms was
   dramatically increased funding in the years           hampered initially by delays in preparing an
   immediately preceding the decennial, many of the      acquisition plan, appointing a project manager, and



Commerce OIG Semiannual Report                           21                                    September 2001
                                                                                                IG’s Message for the Congress


                                      establishing a program office, as well as by            Looking toward the next decennial, the Bureau
                                      inexperienced contract management.                      reports that it has begun to develop a
                                                                                              “comprehensive, timely, integrated, and well-
Major Challenges for the Department




                                      We were also concerned about the level of quality       planned strategy—a sharp contrast to the Census
                                      control at certain local census offices. We believe     2000 approach.” Key components of the 2010
                                      that in several offices nonresponse follow-up may       strategy are (1) a modernized and continuously
                                      have been affected by enumerators’ failure to           updated address list and associated geographical
                                      follow established procedures for collecting            information system (state-of-the-art MAF/TIGER
                                      questionnaire data. In one case, the Bureau had         systems); (2) more timely collection and
                                      to recount more than 67,000 households. In              dissemination of long-form demographic and
                                      1990, Census had similar problems with                  socioeconomic data throughout the decade (full
                                      enumerators failing to collect complete household       implementation of the American Community
                                      information, which necessitated a resurvey of           Survey); and (3) a well-planned and -tested 2010
                                      129,000 households.                                     decennial census design (a simplified short-form-
                                                                                              only design).
                                      In the decennial just completed, the Bureau
                                      conducted a multifaceted public awareness               Because of the cost and risk involved in
                                      campaign to increase the response rate. This            conducting a full count of individuals residing in the
                                      effort consisted principally of two major activities:   United States, our office plans to periodically
                                      the first-ever paid advertising campaign and a          evaluate the Bureau’s progress in planning for the
                                      comprehensive partnership program with local            2010 decennial and its readiness for conducting
                                      governments and tribal leadership. OIG                  mid-decade testing.
                                      conducted an audit of these activities and the
                                      coordination between them, and found that both
                                      contributed positively to the decennial.

                                      With the projected increased use of the Internet,
                                      along with the Census Bureau’s own expanded
                                      use of various telecommunications devices to
                                      transmit questionnaire data, information security
                                      planning will be paramount for the 2010 decennial.
                                      Under Title 13 of the U.S. Code, the Bureau must
                                      prevent disclosure of the data it collects. Such
                                      disclosure could seriously damage future
                                      decennials by undermining public confidence in the
                                      Bureau’s ability to keep information confidential.
                                      For the 2000 decennial, we recommended several
                                      measures to reduce the risk of disclosure of
                                      sensitive information. Census will need to
                                      implement even stronger safeguards for 2010.



                                      Commerce OIG Semiannual Report                            22                                      September 2001
    IG’s Message for the Congress


   CHARTING OUR COURSE FOR THE TWENTY-FIRST CENTURY




                                                                                                                   Major Challenges for the Department
   We began this first year of the new millennium          The Top 10 Management Challenges addressed in
   having resolved to take careful stock of the status     this report continue to rank high on this list of
   of departmental programs and functions, and             priorities. However, they have been amplified and
   precisely set our course for the future. With these     further refined by our planning process. Other key
   goals in mind, OIG designed and implemented an          areas include human capital, procurement, system/
   extensive survey and planning process to evaluate       capital acquisitions, and information technology/
   Commerce activities and determine those areas           data management.
   most in need of our attention.
                                                           We are preparing to publish this audit and
   The process was comprehensive and multifaceted.         inspection plan as a ready reference to keep our
   OIG interoffice work groups conducted extensive         focus and efforts on track. However, the plan is a
   research on individual operating units—examining        “living document” that we will periodically revisit
   the state of the unit; reviewing a range of materials   and revise to ensure that it continues to reflect the
   that included budget requests, legislative              needs of the country and the Department’s role in
   documents, GPRA-related plans and reports, and          accommodating them.
   relevant congressional testimony; analyzing issues
   that cut across and impact the missions of several
   units at once; and interviewing OIG employees
   whose experience reviewing departmental
   activities was a valuable source of ideas and
   information.

   OIG senior officials broadened the scope of the
   work groups’ activities by holding discussions with
   congressional staff, departmental managers, and
   other stakeholders to solicit their suggestions on
   potential topics for review.

   Following these efforts, OIG convened a planning
   conference at which managers and work group
   members presented their findings. Each work
   group identified 10 areas that it deemed to be
   most significant for the Commerce units it had
   examined. From these discussions, senior
   managers developed a list of more than 40
   priorities that will guide OIG audit and inspection
   activities for the years 2002-03 and beyond.


Commerce OIG Semiannual Report                             23                                     September 2001
                                                    Department of Commerce
                                                          Organization Chart


                                               Office of the
                                                Secretary



  Bureau of                     Economic                           International                  U.S. Patent and
   Export                      Development                             Trade                        Trademark
Administration                Administration                      Administration                       Office




                  Economics and
                                                                                       Technology
                    Statistics
                                                                                      Administration
                  Administration




                                   Bureau of                          National Institute               National
      Bureau of                                                        of Standards                   Technical
                                   Economic
     the Census                                                       and Technology             Information Service
                                   Analysis




                                                                                          National
              Minority Business                    National Oceanic
                                                                                    Telecommunications
                Development                        and Atmospheric
                                                                                      and Information
                  Agency                            Administration
                                                                                       Administration



                                        National                      National
                                    Marine Fisheries                  Ocean
                                        Service                       Service




                                        National                      Marine
                                        Weather                     and Aviation
                                        Service                      Operations




                                                                      Oceanic
                                        NESDIS                    and Atmospheric
                                                                     Research




 Commerce OIG Semiannual Report                              24                                        September 2001
              Bureau of Export Administration


                                      Follow-Up Review Determines Status of
The Bureau of Export                  Earlier Export Control Recommendations
Administration is primarily
responsible for administering and
enforcing the nation’s system for
                                      Besides mandating annual reports on the adequacy of U.S. government
controlling exports of sensitive      export controls and counterintelligence measures, the National Defense
dual-use goods and technologies.      Authorization Act for Fiscal Year 2000 requires that we provide annual
BXA’s major functions include         updates to the Congress on the status of recommendations made in
formulating and implementing          earlier reports submitted under the act. This year’s follow-up assessed
export control policy; processing
export license applications; con-
                                      the actions that Commerce operating units, principally BXA, had taken to
ducting various policy, technical,    implement the recommendations from our March 2000 and March 2001
and economic analyses; promul-        reports.
gating regulations; conducting
industry outreach; and enforcing      ¬      In March 2000 we focused on three activities that BXA carries
the Export Administration Act and
regulations. BXA is divided into
                                             out or participates in to help prevent the illicit transfer of sensitive
two units:                                   U.S. technology: deemed export controls, the Visa Application
Export Administration imple-                 Review Program, and efforts to support the interagency
ments U.S. export control and                Committee on Foreign Investment in the United States (see
nonproliferation laws and policies           March 2000 issue, page 21). Overall, we concluded the
through export licensing, commod-
ity classifications, and advisory
                                             following: (1) Deemed export control regulations needed greater
opinions; technical, economic,               clarity, and compliance with them by federal agencies and private
foreign availability, and policy             companies needed improvement; (2) the Visa Application Review
analyses; promulgation of regu-              Program showed promise but needed refinement; and (3) federal
lations; and industry outreach. It           efforts to monitor foreign investment in U.S. companies for
also conducts various defense
industry activities.
                                             national security implications should be examined by the
Export Enforcement participates              interagency OIG review team. We made 24 recommendations to
in reviews of export license appli-          address our specific findings.
cations and conducts criminal and
administrative investigations                In last year’s follow-up, we determined that BXA’s actions for 16
relating to the export control
portions of the Export
                                             of our 24 recommendations met our intent, but that its actions for
Administration Act and regulations.          the other 8 were inadequate (see March 2001 issue, page 19).
It also administers and enforces             This year’s review concluded that 6 of those 8 recommendations
the antiboycott provisions of the            remain open. All 6 deal with deemed export controls and the
act and regulations.                         Visa Application Review Program.




Commerce OIG Semiannual Report                             25                                      September 2001
                                                               Bureau of Export Administration



¬       In March 2001 we focused on the Commerce Control List, which is
        maintained by BXA, and the U.S. Munitions List, which is maintained                 Bureau of
        by the State Department (see March 2001 issue, page 16). We                          Export
        found that the Commerce list could be made more user-friendly, that               Administration
        BXA should be referring munitions-related commodity classifications
        to the appropriate federal licensing agencies, and that the Bureau
                                                                                   Export                   Export
        needed to expedite the classification process. We also noted that       Administration           Enforcement
        commodity jurisdiction requests are not being handled through
        automated systems or on a timely basis, and that there was a
        breakdown in the interagency process for resolving certain
        jurisdictional disputes among the Departments of Commerce,
        Defense, and State. The report contained 14 recommendations.

        Our follow-up review determined that only 2 of the 14 have been
        fully implemented. Although BXA has given some attention to the
        remaining 12 recommendations, its actions to date have not
        adequately addressed them.

        Given BXA’s central role in administering the dual-use export control
        process, we believe that the agency must implement the open
        recommendations from both reports as soon as possible.
        (Office of Inspections and Program Evaluations: IPE-14246-2)




    Commerce OIG Semiannual Report                        26                                     September 2001
Economic De
          Devvelopment
Administration
                                     A Large Portion of Grant Dollars Awarded
The Economic Development
Administration was established
                                     To Revolving Loan Funds Were Not Needed
by the Public Works and Eco-
nomic Development Act of 1965        EDA awards grants to local economic development organizations to
to generate new jobs, help retain    capitalize loan pools that finance business activities in economically
existing jobs, and stimulate         distressed areas. Loan repayments, including interest, create a revolving
commercial and industrial growth     source of capital intended to finance other business enterprises.
in economically distressed areas
of the United States. EDA
continues to fulfill this mission    In the past year, we have conducted audits of certain revolving loan fund
under the authority of the           (RLF) grants made by EDA (see, for example, March 2001 issue, page
Economic Development Adminis-        24). The grants were awarded either to capitalize new RLFs or to
tration Reform Act of 1998, which    recapitalize existing ones.
introduced the concept of
Comprehensive Economic
Strategies, a local planning         We continued our efforts during this semiannual period, auditing another
process designed to guide the        10 RLF awards. We determined that most of the award recipients had
economic growth of an area.          substantial funds that were not needed or used within 3 or more years of
Based on these locally and           the award date, and that seven of them had used none of the grant
regionally developed strategies,
EDA works in partnership with        funds. Overall, the unused funds represented more than $3.7 million (or
state and local governments,         81 percent) of the nearly $4.6 million in awards.
regional economic development
districts, public and private        We found a variety of reasons for recipients’ failure to use grant funds as
nonprofit organizations, and         envisioned and approved, including the following:
Indian tribes to help distressed
communities address problems
associated with long-term            ¬       A lack of demand for loans.
economic deterioration and
recent, severe economic disloca-     ¬       Sufficient existing or alternative funding sources to meet loan
tions, including recovery from the           demand.
economic impact of natural
disasters, the closure of military
installations and other federal      ¬       An inability to obtain matching funds.
facilities, changes in trade
patterns, and the depletion of       ¬       Insufficient administrative resources.
natural resources. EDA provides
eligible recipients with technical
assistance, as well as grants for
public works and economic            Under the RLF program, recipients generally have 3 years to complete
development, planning, training      the initial lending cycle, although EDA can extend the period for good
and research, and economic           cause. By law, grant funds that are not drawn down within 5 years of the
adjustment.                          award are automatically deobligated, unless otherwise specified in the
                                     appropriations language.




Commerce OIG Semiannual Report                           27                                    September 2001
                                                       Economic Development Administration

Many of the recipients we reviewed were nearing the statutory deadline
for automatic deobligation but had used little or none of their funding.                   Economic
                                                                                          Development
Under the circumstances, we were concerned that they might be
                                                                                         Administration
motivated to make improper or imprudent loans to draw down the
remaining grant funds rather than risk deobligation. To prevent this
potential waste of federal dollars, we recommended in most cases that            Program             Finance and
EDA immediately terminate the award and deobligate all unused funds.            Operations          Administration
(Atlanta Regional Office of Audits: ATL-14220, ATL-14299, ATL-
14300, and ATL-14301; Denver Regional Office of Audits: DEN-                   Cong. Liaison,
13740 and DEN-14156; Seattle Regional Office of Audits: STL-                     Program              Regional
                                                                               Research and           Offices
13442, STL-14122, STL-14141, and STL-14142)                                     Evaluation




EDA-Funded Public Works Projects
Experienced Significant Delays
During this semiannual period, OIG completed audits of four EDA
public works grants awarded to local governments and related agencies.
Our purpose was to assess the reasons for delays in completing
construction projects and determine whether the grantees had complied
with the terms of their awards. We found that the delays were due to a
variety of factors: late project starts, impermissible changes in scope,
continuing design changes, and inability to obtain needed rights of way.
We also discovered that some grantees received excessive
reimbursements and incurred unnecessary contract costs. We are
reporting a total of $2.3 million in questioned costs and funds to be put
to better use. Following are summaries of the four audit reports issued.

California Project for Construction of
Sewer Line, Rail Spur, and Loading Dock

EDA awarded a $1,237,500 grant in 1996 to a redevelopment agency
that is closely affiliated with a California city. The grant, which required
local matching funds of $825,000, was for construction of a sewer line,
rail spur, and loading dock to serve industrially zoned land. At the time
of our audit fieldwork in May 2001, only the sewer line had been
completed. The rail project was completed on July 30, 2001.




    Commerce OIG Semiannual Report                             28                                 September 2001
Economic Development Administration


                                 We uncovered the following areas of noncompliance with the grant’s
                                 provisions:

                                 ¬       The rail spur, as designed and built, did not include the loading
                                         dock and related improvements described in the grant
                                         application. Without these key components, the project’s
                                         economic benefits will not be realized.

                                 ¬       A conflict of interest existed: Acting in the capacity of city
                                         officials, three principals in a consulting firm under contract to
                                         provide public works, economic development, and planning
                                         services to the city participated in the award of $266,229 in
                                         grant funds to their own firm to supply design, engineering, and
                                         other services for the project.

                                 ¬       Because of delays in securing a site for the rail project,
                                         consultant costs escalated as the city awarded more contracts
                                         to redesign plans and conduct additional environmental
                                         studies. As of May 31, 2001, the city had spent $403,021, or
                                         about 40 percent of the total costs incurred, for consultant
                                         services.


                                 Because of these deficiencies, we recommended that EDA terminate
                                 the rail portion of the project for cause, deobligate $624,484 of
                                 undisbursed grant funds, and recover all funds expended for that
                                 portion. We also recommended that EDA recover $159,737 for the
                                 federal share of the improperly awarded contracts to the city officials’
                                 consulting firm and require the grantee to refund EDA’s share of any
                                 reimbursed costs associated with unfeasible rail project sites.

                                 The grantee did not concur with our findings and recommendations,
                                 stating that even without the loading dock and other improvements, the
                                 rail spur as constructed satisfies the objectives of the project. The
                                 grantee also contended that there was no conflict of interest in the
                                 award of consulting work to the city officials’ own firm. We
                                 disagreed. (Seattle Regional Office of Audits: STL-14258)




Commerce OIG Semiannual Report                     29                                     September 2001
                                                    Economic Development Administration

Tennessee Project for
Construction of Building Complex

In September 1995, EDA awarded a $900,000 public works grant to a
Tennessee town and a private association for construction of a four-
building complex to house the association. The Appalachian Regional
Commission awarded an additional $700,000 for the project, and the
grantees provided $750,000 in matching funds. In April 2000, the
grantees contributed another $600,000 in matching funds, bringing the
total project budget to $2.95 million.

The project’s performance period was from September 1995 to March
1998. However, EDA granted two extensions, which lengthened the
period to May 2000. When it became apparent that the project could
not be completed by the September 30, 2000, deadline for expiration
of the funds, EDA and the grantees terminated the award for
convenience, and EDA disbursed the balance of the grant money.

Our audit revealed that the grantees materially violated the terms and
conditions of the award by the following actions:

¬       Failing to complete the project within the required time
        frame. Because of a change in architects and substantial design
        revisions as construction progressed, the grantees could meet
        neither the original completion date nor the extended deadlines.

¬       Certifying that the project was complete when it was not.
        On September 12, 2000, the grantees submitted their final
        reimbursement request to EDA and certified that the project
        was 100 percent complete. However, during our review 2
        months later, we learned that the project was still only about 60
        percent complete and not scheduled to be finished until June
        2001.

¬       Using an incorrect rate to calculate reimbursement
        requests. The grantees received $419,184 in advance
        payments using the wrong federal participation rate. When the
        grant was made, the federal rate was 68 percent; the grantees’
        contribution of an additional $600,000 in matching funds in
        April 2000 reduced the federal rate to 54 percent. However,


    Commerce OIG Semiannual Report                          30                September 2001
Economic Development Administration

                                        the grantees continued to use the original rate when claiming
                                        reimbursements.


                                 We recommended that EDA require the recipients to complete
                                 construction of the EDA portion of the project by October 31, 2001,
                                 establish an accounts receivable for $419,184 in unearned federal grant
                                 funds, and permit the grantees to reduce this amount by submitting
                                 substitute costs through October 31. We also recommended that EDA
                                 recover about $15,000 in imputed interest from the grantees, which
                                 was attributable to the premature drawdown of grant funds. In the
                                 event the grantees are unwilling or unable to comply with these
                                 recommendations, we advised EDA to recover the prematurely
                                 disbursed grant funds plus interest.

                                 Although the recipients acknowledge that the project was not
                                 completed as scheduled, they claim that termination of the project for
                                 convenience and disbursement of the remaining grant funds was entirely
                                 proper. (Atlanta Regional Office of Audits: ATL-13966)


                                 Arkansas Project for Improvements
                                 to Water Treatment Plant

                                 In April 1996, EDA awarded a public works grant to an Arkansas city
                                 for improvements to its water treatment plant. The purpose of the
                                 project was to encourage industrial development and save local jobs.
                                 The total approved cost was $1,670,000 with EDA providing
                                 $1,002,000, or 60 percent, and the city contributing the balance. At
                                 the completion of our review in June 2001, EDA had disbursed
                                 $858,637 to the city.

                                 The city encountered serious delays in acquiring its share of project
                                 funds. As a result, construction began late and was not scheduled for
                                 completion until November 20, 2001—well beyond the September 30,
                                 2001, statutory expiration date of the grant funds.

                                 Our audit reached the following conclusions:

                                 ¬      EDA’s 60 percent reimbursement rate to the city was too high
                                        and resulted in excess disbursements of $324,134. The 60

Commerce OIG Semiannual Report                      31                                  September 2001
                                                     Economic Development Administration


        percent rate was based on the city’s originally approved
        contribution to the total project budget. However, a cost
        overrun increased the total project cost, thereby reducing the
        reimbursement rate to 37.42 percent.

¬       Because the project would not be completed before the grant
        funds expired, the city would not earn $155,091 of those funds.


We recommended that EDA use the 37.42 percent federal rate for
future disbursements under the grant and direct the city to return the
excess $323,134, along with interest earned on the advance payments.
EDA should also withhold $155,091 from disbursements as of
September 30, 2001, and should deobligate the expired funds. The city
disagreed with our findings, defending its use of the 60 percent rate and
contending that the EDA portion of the project is complete. (Denver
Regional Office of Audits: DEN-13739)


Texas Project for
Construction of Rail Spur

In September 1996, EDA awarded a Title IX defense conversion grant
to a Texas city for development of a rail spur that would connect a
major rail line to an industrial park at the local airport. The assistance
was provided to help the city recover jobs lost when a nearby Air
Force base closed. The total grant amount was $1,695,000, consisting
of $1,271,250 in federal dollars and a $423,750 match from the city.

Before construction of the rail spur could begin, the city needed to
acquire about 2 miles of right-of-way and execute a land swap with a
university and private property owners. At the time of OIG’s audit,
EDA had not disbursed any grant funds.

We found that the city had not diligently pursued completion of the
project and had asked EDA in August 1999 to defer construction of the
rail spur and authorize use of the grant funds to pay for roadway
improvements. The request was not approved, however, when EDA
subsequently determined that the proposal would unacceptably alter the
scope of the project.



    Commerce OIG Semiannual Report                           32                September 2001
Economic Development Administration

At the time of our audit in April 2001, the city had still not acquired the
needed rights-of-way, received other necessary permits, or awarded
the construction contract. We concluded that the city was unlikely to
complete the project before the EDA funds expired on September 30,
2001.

Moreover, after completion of our fieldwork, we learned that because
the city could not secure some rights-of-way, it had altered its plans for
the rail spur. Instead of extending rail service to the industrial park, the
city now proposes to have the spur terminate on vacant land outside the
airport. We believe this proposal deviates so substantially from the
original purpose of the award that it constitutes an impermissible
change in the scope of the project.

We recommended that EDA obtain a legal opinion as to whether the
city’s actions constitute an impermissible change of scope. We also
recommended that no EDA funds be disbursed to the city absent
evidence that the project can be completed before the expiration of
grant funds on September 30, 2001. Otherwise, EDA should terminate
the grant for cause and deobligate the funds. (Denver Regional
Office of Audits: DEN-13742)


Trade Adjustment Assistance Centers Need
Stronger Controls over Contract Compliance
The Trade Act of 1974, as amended, authorized the President to
negotiate international trade agreements. To date, the legislation has
resulted in three free trade agreeements.

While free trade policy is a central component of economic expansion
and can result in more jobs for the overall economy, it also can lead to
temporary economic disruption in individual communities and regions of
the country. To mitigate these negative effects, the act also created the
Trade Adjustment Assistance program, under which EDA funds 12
regional centers (TAACs) that offer a range of business advisory
services. The centers help affected companies diagnose their problems
and develop recovery strategies. Technical assistance with
implementing recovery plans is primarily provided through contractual
arrangements with private consulting firms.



 Commerce OIG Semiannual Report                               33               September 2001
                                                          Economic Development Administration



                       Trade Adjustment Assistance Centers


             Seattle




                                                                                                Boston
                                                                        Ann Arbor        Binghamton

                                                                                    Blue Bell     Trenton
                                                                    Chicago
                                  Boulder
                                                     Lee’s Summit


        Los Angeles

                                                                              Atlanta



                                            San Antonio




   Source: OIG


Under a cooperative agreement with EDA, each center receives
between $600,000 and $1 million annually, which covers administrative
expenses and a portion of technical assistance costs. The centers and
clients share the cost of consulting contracts and other technical
assistance costs on a 50-50 or 75-25 basis, up to a limit of $20,000
per client.

Within the past year, the Northwest TAAC in Seattle experienced two
problems involving the cost-sharing arrangement for consultant
contracts: one in which a consultant failed to provide the agreed-upon
services, and one in which a client company failed to pay its share of the
technical assistance costs. At EDA’s request, the center reported these
problems to OIG, and we conducted a review to determine whether
these failures were due to inadequate internal controls at the center.

Under the procedures used by the Northwest TAAC, the center’s share
of a consultant’s invoice would be paid when the client provided a
photocopy of its check for payment of services. Accordingly, the


    Commerce OIG Semiannual Report                                  34                                      September 2001
Economic Development Administration

                                 process relied on consultants to report instances of client nonpayment
                                 and on clients to report dissatisfaction with consultant services. Center
                                 officials acknowledged that this system hindered timely notification of
                                 noncompliance, required significant staff time for follow-up, and resulted
                                 in threats of legal action by both consultants and clients.

                                 We expanded the scope of our review to include the other 11 TAACs
                                 and found that most were employing procedures that failed to
                                 adequately ensure contract compliance. Eight of these centers relied on
                                 verbal notification of compliance from consultants or clients. The other
                                 three—the Western, Mid-America, and New England centers—had
                                 more effective controls: They required written certification that
                                 consulting services were adequate and that client payments were made.
                                 We determined that this method provides greater assurance of
                                 compliance by both consultants and clients without placing burdensome
                                 requirements on either party or the centers. The written documentation
                                 may also reduce the need for follow-up by the centers and lessen the
                                 likelihood of legal actions.

                                 We recommended that EDA develop a uniform system of controls for
                                 all TAACs as part of the contract monitoring process. This system
                                 should include both certifications from clients that consultant work is
                                 satisfactory and written evidence that consultants have received client
                                 payments. EDA agreed with our recommendation, and proposed
                                 revising the standard scope-of-work statement for future TAAC awards
                                 to require appropriate controls. In the interim, EDA will advise all
                                 existing TAACs of the impending change and encourage immediate
                                 implementation of the new procedures. (Seattle Regional Office of
                                 Audits: STL-14322)




Commerce OIG Semiannual Report                      35                                    September 2001
                                                          Economics and
                                                Statistics Administration
The Economics and Statistics
                                      Additional Security Measures Needed for
Administration analyzes               Advance Retail Sales Economic Indicator
economic developments,
formulates policy options, and        Two ESA bureaus, the Census Bureau and the Bureau of Economic
produces a major share of U.S.        Analysis, develop and disseminate the Principal Federal Economic
government economic and
demographic statistics. The Chief     Indicators—major series of statistics that describe the condition of the
Economist monitors and analyzes       nation’s economy. Maintaining the security of these indicators
economic developments and             throughout the preparation and release process is of utmost importance:
directs studies that have a bearing   The indicators have significant commercial value, may affect the
on the formulation of economic        movement of commodity and financial markets, and may be taken as a
policy. ESA has two principal
agencies:                             measure of the impact of government policies. In addition, many are
Bureau of the Census is the           based on confidential data voluntarily provided by businesses. For these
country’s preeminent statistical      reasons, no information associated with the indicators should be
collection and dissemination          disclosed before their official release time.
agency. It publishes a wide variety
of statistical data about the
nation’s people and economy, con-     The Census Bureau develops the Advance Retail Sales indicator. When
ducting approximately 200 annual      initial estimates of this indicator become available, Bureau staff operate
surveys, in addition to the decen-    in a “lockup,” or secure, mode to safeguard them as they are refined
nial census of the U.S. population    and finalized over several days.
and the decennial census of
industry.
Bureau of Economic Analysis           ESA is responsible for releasing all of the indicators to the public.
prepares, develops, and interprets    Thirty minutes before the official release time, it provides the indicator
the national income and product       information to reporters in a secure pressroom (lockup facility) and
accounts (summarized by the           allows them to prepare their news stories. At the release time, reporters
gross domestic product), as well      may transmit the stories to their organizations, and the information is
as aggregate measures of
international, regional, and state    then also made available on the ESA and Census Bureau web sites.
economic activity.                    The chart on the following page depicts the time line for development
                                      and release of the Advance Retail Sales indicator.

                                      OIG conducted an evaluation to determine whether ESA and the
                                      Census Bureau have adequate internal controls to prevent premature
                                      disclosure or use of the Advance Retail Sales indicator data. We
           Economics and              selected this indicator for scrutiny because of its importance and
             Statistics
           Administration             sensitivity. We looked at the effectiveness of (1) application controls on
                                      information technology resources used to prepare the indicator and
                                      (2) management controls over personnel security for ESA and Census
 Bureau                Bureau of
  of the               Economic
                                      staff who have advance knowledge of the indicator.
 Census                Analysis




Commerce OIG Semiannual Report                          36                                     September 2001
Economics and Statistics Administration




      Time Line for Development and Release of Advance Retail Sales Indicator

        End of reporting month                     2nd - 6th day of the following           5th - 6th day of the following
        Mail or fax Advance Retail                 (compiling) month                        (compiling) month
        Sales Survey forms to the                  Key response data.
        4,100 participating businesses.            Follow up by phone, if                    Edit and tabulate data.
                                                   needed.
                                                                                     Begin secure operations “lockup”

                   7th day of the following
                                                                     7th - 8th day of the following (compiling) month
                   (compiling) month
                                                                     Review preliminary indicator values.
                   Develop preliminary indicator values.
                                                                     Validate final indicator values.
                   Prepare preliminary public release
                                                                     Prepare final public release reports.
                   reports.



                                                                                    9th day of the following
                                     8th day of the following
                                                                                    (compiling) month
                                     (compiling) month
                                                                                    Officially release indicator (ESA).
                                     Send report to Council of
                                                                                    Post reports on public ESA and
                                     Economic Advisors.
                                                                                    Bureau web sites.


    Note: All days refer to workdays. All activities are performed by the Census Bureau, with the exception of release by ESA.


We determined that access controls appropriately establish individual
accountability and limit users’ processing privileges (these privileges
determine which computer-based information and activities a user can
access). We also found that physical controls for servers used to
develop the indicator are reasonable but that other aspects of these
controls need strengthening, as do management controls over personnel
security. Among our specific findings were the following:

¬        Guidance for personnel access to offices is inadequate.
         The procedures for access to offices during lockup do not
         explicitly state that office personnel must use the designated
         controlled-access door; nor do they address measures to
         protect information when personnel who are not authorized
         access to sensitive data require admittance to lockup areas. We
         recommended that the procedures be modified to rectify these
         omissions.
 Commerce OIG Semiannual Report                                       37                                               September 2001
                                       Economics and Statistics Administration


                                 ¬   Application software change control is informal and lacks
                                     documented procedures. Although a process exists for
                                     requesting changes to the application software, there are no
                                     written procedures for making the changes or for performing
                                     and documenting tests on the modified software to ensure that
                                     only authorized changes are made. We advised that procedures
                                     be developed for controlling software change.


                                 ¬   Auditing software has not been regularly used during
                                     lockup. When audit logs were available, they were not used
                                     regularly to monitor access to the indicator data. A recent
                                     upgrade to the operating system of the server that stores the
                                     data does not accommodate the format for audit logs that is
                                     required by the auditing software. We recommended that a
                                     commercially available audit software program be installed as
                                     soon as possible, and that procedures for and training on its
                                     use be provided.


                                 ¬   Employees have not had appropriate background
                                     investigations, and risk levels have not been properly
                                     assigned. Risk designations correlate to the potential damage
                                     an individual in a position of public trust could cause to the
                                     efficiency and integrity of government programs and operations.
                                     The level of background investigation required on an employee
                                     is determined by the level of risk assigned to the employee’s
                                     position.

                                     Of three employees in Advance Retail Sales-related positions
                                     classified as moderate risk, only one had undergone the
                                     required level of background check. Moreover, the
                                     Department’s Office of Security could not identify what type of
                                     investigation, if any, had been conducted on staff in most of the
                                     positions classified as low risk in another Census unit. Two
                                     persons designated as alternate ESA pressroom lockup
                                     directors had not undergone appropriate background checks,
                                     and risk designations assigned to some positions were
                                     inconsistent with their levels of responsibility and trust. We
                                     recommended that appropriate background investigations be
                                     completed for all employees who have prerelease knowledge of

Commerce OIG Semiannual Report                 38                                    September 2001
Economics and Statistics Administration


       economic indicator data and that risk classifications be
       reassessed to ensure that they reflect the appropriate level of
       responsibility and trust.


¬      Guidance concerning legal and ethical restrictions on
       market investments based on advance knowledge needs
       to be supplemented. Census Bureau and ESA employees
       who have access to prerelease indicator data did not receive
       adequate written guidance regarding the legal and ethical
       restrictions on investing in financial markets based on their
       advance knowledge of this information. We recommended that
       specific details be provided on how the government’s ethics
       standards restrict these employees from engaging in certain
       financial transactions.


ESA and the Census Bureau agreed with and are taking steps to
implement all of our recommendations. (Office of Systems
Evaluation: OSE-12754)


In identifying criteria used to determine appropriate risk levels and
associated background investigations, we also noted a lack of guidance
on these matters from the Department’s Office of Human Resources
Management and Office of Security. This finding suggested that the
problems with risk assessment and background investigations found at
Census might exist in other Commerce operating units, and prompted us
to undertake another evaluation to address this issue. (See page 63.)




 Commerce OIG Semiannual Report                             39           September 2001
                                                             Inter na
                                                             Interna  tional Tr ade
                                                                   national
                                                                  Administr
                                                                  Administra ation
                                       Visits to Two US&FCS China Posts Find
The International Trade
Administration is responsible for      Progress Made on 1999 Recommendations
the trade promotion and policy
issues associated with most            Earlier this year, OIG conducted limited on-site reviews of two U.S.
nonagricultural goods and services.
                                       and Foreign Commercial Service posts in China (Beijing and Shanghai)
ITA works with the Office of the
U.S. Trade Representative to           to assess the status of efforts to implement recommendations from our
coordinate U.S. trade policy. ITA      1999 inspection report (see September 1999 issue, page 35). In a
has four principal units:              May 30 memorandum to US&FCS, we reported our observations.
Market Access and Compliance           Among the more significant were the following:
develops and implements
international economic policies of a
bilateral, multilateral, or regional   ¬      New Beijing office. In our 1999 report, we recommended
nature. Its main objectives are to            that US&FCS study the feasibility of moving its Beijing post to
obtain market access for American             another location to provide for a less crowded, more
firms and workers and to ensure               productive working environment. The agency has relocated the
full compliance by foreign nations
                                              post to new office space in the city’s business district—a site
with trade agreements signed with
the United States.                            that provides a much more efficient, professional-looking
Trade Development advises on                  environment than the former embassy location. However, we
international trade and investment            noted a flaw in the design of the new office. US&FCS
policies pertaining to U.S.                   management is taking action to correct the problem.
industrial sectors, carries out
programs to strengthen domestic
export competitiveness, and pro-       ¬      Regional strategic plan. Our earlier report recommended
motes U.S. industry’s increased               that the senior commercial officer in Beijing develop a regional
participation in international                plan for the China Economic Area. The officer is developing
markets.                                      such a plan, which will identify projects to be conducted jointly
Import Administration defends
                                              by the China, Hong Kong, and Taiwan posts.
American industry against injurious
and unfair trade practices by
administering the antidumping and      ¬      Fiscal management. We recommended several actions aimed
countervailing duty laws of the               at ensuring that US&FCS China establish a reliable system to
United States and enforcing other             monitor its budgets, track financial disbursements, verify
trade laws and agreements
                                              records, and strengthen internal controls over financial matters.
negotiated to address such trade
practices.                                    Our follow-up visit found that a new web-based financial
U.S. and Foreign Commercial                   reporting system has made the post’s financial system more
Service promotes the export of                functional and easier to use. For example, the Beijing post’s
U.S. products and helps small and             budget analyst is now able to directly access the reporting
medium-sized businesses market
                                              systems of other China posts, allowing for better oversight of
their goods and services abroad. It
has 105 domestic offices and 157              their financial status.
overseas posts in 84 countries.




Commerce OIG Semiannual Report                          40                                     September 2001
International Trade Administration

¬     Staff rotation, language requirement, and turnover. We
      recommended in1999 that US&FCS do the following to
                                                                                        International
      address staffing issues in China: (1) create incentives to attract                    Trade
      more experienced officers, and (2) develop a plan to support                     Administration
      higher graded foreign national employees. During our recent
      visit, we found that for the first time, US&FCS had waived the                                 Market
                                                                               Import
                                                                                                   Access and
                                                                            Administration
      language requirement for a few officer positions. We later                                   Compliance
      learned that the agency had lined up replacements for all six
      officers who were scheduled to leave during the summer of                Trade              U.S. and Foreign
                                                                                                   Commercial
      2001. The agency is attempting to minimize the loss of foreign        Development
                                                                                                      Service
      national staff to higher paying positions by obtaining Chinese
      government approval to hire such staff directly—a move that
      would enable US&FCS to increase employees’ take-home pay.
      US&FCS is also exploring ways to retain and promote qualified
      individuals, for example, by expanding their duties and thus
      elevating their positions to higher pay levels.

¬     IT upgrades and Internet service. In our earlier report, we
      recommended that US&FCS develop a coordinated policy on
      information technology and provide greater Internet access to
      facilitate market research. Subsequently, the posts have
      received new computer equipment and have expanded their use
      of IT resources. Although Internet service in China is still
      unreliable, access in the new office in Beijing is much better than
      it was in the former location.

¬     Commercial center partners. We had recommended that the
      commercial center in Shanghai improve cooperation with its
      collocated partners, which include representatives of three
      states, one city, and two industry associations. During our
      recent visit, the collocated partners expressed general
      satisfaction with the facility and the cooperation received from
      US&FCS staff, but also voiced a desire for a more formal
      communication system at the center. After our visit, we learned
      that post management was taking steps to meet regularly with
      the partners.

¬     Lease renegotiation. In our 1999 report, we recommended
      that US&FCS Shanghai renegotiate its costly lease for the
      commercial center facility. The center subsequently did so and
      thus reduced its annual rent significantly—from $574,000 to

 Commerce OIG Semiannual Report                             41                                  September 2001
National Oceanic and
Atmospheric Administration
OIG Continues Its Inspections
                                                                            The National Oceanic and
of Weather Forecast Offices                                                 Atmospheric Administration
                                                                            studies climate and global change;
The National Weather Service (NWS) has 121 weather forecast offices         ensures the protection of coastal
(WFOs) nationwide, each of which issues local forecasts as well as          oceans and the management of
                                                                            marine resources; provides
warnings of severe conditions (tornadoes, floods, hurricanes, and other     weather services; and manages
events) for its assigned counties. OIG is inspecting WFOs in various        worldwide environmental data.
regions. During this semiannual period, we completed our second and         NOAA does this through the
third inspections, which covered the WFOs in San Angelo, Texas, and         following organizations:
Missoula, Montana.                                                          National Weather Service
                                                                            reports the weather of the United
                                                                            States and provides weather
We sought to determine how effectively the WFOs (1) deliver warnings,       forecasts and warnings to the
forecasts, and other information to their customers; (2) coordinate their   general public.
activities with state and local emergency managers; and (3) manage their    National Ocean Service issues
network of observers and volunteer spotters. We also assessed the           nautical charts; performs geodetic
                                                                            surveys; conducts research; and
adequacy of each office’s management and internal controls; its             develops policies on ocean mining
compliance with Department, NOAA, and NWS policies and                      and energy.
procedures; and the quality of NWS’s regional oversight.                    National Marine Fisheries
                                                                            Service conducts a program of
                                                                            management, research, and
                                                                            services related to the protection
San Angelo, Texas                                                           and rational use of living marine
                                                                            resources.
The San Angelo WFO, 1 of 31 in NWS’s Southern Region, has a staff           National Environmental Satellite,
of 22 and services a warning area that covers 24 counties in west-          Data, and Information Service
central Texas. Our inspection found that the WFO performs well in           observes the environment by
                                                                            operating a national satellite
some important areas, as follows:                                           system.
                                                                            Office of Oceanic and
¬       The office provides most services to the public                     Atmospheric Research conducts
        effectively. Performance statistics show that, for the most         research related to the oceans and
        part, San Angelo does a good job of issuing weather forecasts,      inland waters, the lower and upper
                                                                            atmosphere, space environment,
        warnings, and other information. The only area of concern with      and the Earth.
        the office’s forecasting is that its Probability of Precipitation   Office of Marine and Aviation
        statistics were less accurate than those provided by computer       Operations operates NOAA’s
        models.                                                             ships and aircraft and provides
                                                                            NOAA programs with trained
                                                                            technical and management
        We also found that the office’s outreach efforts to local users     personnel from the nation’s
        were effective. All of the local public officials and emergency     seventh uniformed service.
        managers we spoke with had favorable comments about their
        interactions with WFO staff and about the quality of services
        received.

 Commerce OIG Semiannual Report                              43                                September 2001
                                       National Oceanic and Atmospheric Administration

                                         ¬      Most administrative activities were well controlled. Office
                                                policies and procedures for inventory, supplies, bankcards,
                                                procurement, time and attendance, travel, and security have
                                                adequate controls and well-maintained documentation.
                   NOAA

                                         Our review did uncover a number of managerial, administrative, and
   National                National      operational deficiencies that require prompt attention:
   Weather                 Ocean
   Service                 Service
                                         ¬      The WFO has conducted few local studies. Of the five
   National                                     research studies completed during the last 2 years, three were
Marine Fisheries           NESDIS
    Service
                                                prepared by one staff member, even though all meteorologists
                                                are required to perform research, according to their
Oceanic and               Marine and            performance plans. The office did not have an adequate
Atmospheric                Aviation             research plan or a detailed outline for studies to be completed.
 Research                 Operations
                                                WFO management should continue to encourage staff to
                                                participate in local studies, work with them to develop research
                                                topics, and provide needed guidance and constructive criticism.

                                         ¬      Until just before our visit, the WFO did not have a
                                                structured training program. While some office employees
                                                said they have received sufficient training, most wanted a more
                                                systematic, individual training approach. WFO management
                                                needs to ensure that all staff members understand how the new
                                                professional development plans will be used and interpreted.
                                                Management must also ensure access to appropriate training
                                                that is based on employees’ plans.

                                         ¬      Air Force radar does not meet availability standards. San
                                                Angelo uses both NWS and Air Force radar to monitor its
                                                warning area. However, Air Force radar does not meet the
                                                standards for availability set by NWS and the Departments of
                                                Defense and Transportation, primarily because of repair delays.
   Texas WFOs’ County Warning Areas             NWS must continue to work with Defense officials to facilitate
   Source: National Weather Service
                                                the timely repair of radar equipment.

                                         ¬      NWS’s policies for information technology security had
                                                only recently been implemented. The WFO had not
                                                designated an information technology security officer or
                                                prepared security, risk analysis, and disaster recovery plans until
                                                shortly before our visit. WFO management needs to take steps
                                                to comply with the new security plan.

 Commerce OIG Semiannual Report                           44                                     September 2001
National Oceanic and Atmospheric Administration

¬     New station duty manual can be improved. After we
      announced our inspection, San Angelo personnel updated the
      March 1994 station duty manual. Before this update, the office
      lacked a current manual to address operational and emergency
      needs. After reviewing the new manual, some employees told
      us that they still did not understand how to perform several
      critical tasks. The manual should be reviewed to determine
      how to define staff roles and responsibilities more clearly and to
      identify other needed improvements.


¬     Focal point responsibilities have not been effectively
      communicated to staff. All WFO personnel perform or
      support key office activities via “focal point” duties, such as fire
      weather forecasting, property management, information
      technology security, and forecast quality control. San Angelo
      personnel had not been officially tasked with all primary and
      secondary focal point duties until shortly before our inspection.
      We found during our visit that some staff were still unclear about
      which responsibilities were theirs and about who was assigned
      as their backup. WFO management needs to maintain an
      updated list of focal point duties and ensure that staff are
      prepared to handle them.


¬     Quality control needs to be more systematic. San Angelo
      staff were not consistently performing quality control reviews of
      forecasts, research studies, and other office products. As a
      result, some products have been released with incorrect
      information. While the overall quality of products appeared
      adequate, staff acknowledged that accuracy and completeness
      could be improved. WFO management needs to implement an
      ongoing quality control system and emphasize to all forecasters
      and technicians that products must be reviewed.


¬     Greater regional oversight of the WFO is needed.
      Regional officials, although aware of some of the problems we
      identified, had not adequately addressed them. We believe that
      when regional managers visit weather forecast offices, they
      should not only review programs, but should also address other

Commerce OIG Semiannual Report                              45               September 2001
                                 National Oceanic and Atmospheric Administration

                                            priorities, such as management and employee concerns, and
                                            take appropriate corrective actions.


                                   NOAA generally agreed with our observations. However, it took
                                   exception to a number of them, believing that the recommended actions
                                   were already in place. (Office of Inspections and Program
                                   Evaluations: IPE-13531)


                                   Missoula, Montana

                                   The Missoula WFO, 1 of 24 in NWS’s Western Region, has a staff of
                                   25 and services a warning area that covers 14 counties (11 in
                                   northwestern Montana and 3 in central Idaho). The office’s fire
                                   weather program, considered its most critical activity, provides
                                   meteorological support to fire management agencies for wildfire
 Missoula WFO Radar at             suppression and the protection of life and property. This support
 the top of Point Six              includes providing warnings, forecasts, on-site services during wildfires,
 Source: OIG
                                   and meteorological training for fire management officials.

                                                    We found that the office provided most services to the
                                                    public effectively and was generally well managed.

                                                    ¬      Missoula has done a good job of issuing
                                                           most weather forecast and warning
                                                           products. The office’s programs for fire
                                                           weather, winter weather, hydrology, and
                                                           aviation have been generally effective, but the
                                                           severe storm program needs management
                                                           attention. In addition, the office should
                                                           strengthen its fire weather program by
                                                           conducting annual postseason analyses of fire
                                                           weather seasons beginning with the year 2000
                                                           to identify program strengths and weaknesses—
                                                           a best practice developed by the Great Falls,
                                                           Montana, WFO.



         Missoula WFO County Warning Area
         Source: National Weather Service


Commerce OIG Semiannual Report                       46                                     September 2001
National Oceanic and Atmospheric Administration

¬       Office outreach efforts to emergency managers and other
        users are effective. Missoula has developed excellent
        relationships with state and local officials, the media, and area
        schools. We spoke with many public officials and emergency
        managers, all of whom had favorable comments about their
        interaction with WFO staff and about the quality of services
        received.

¬       Regional oversight appears adequate. We looked at how
        often regional managers made station inspections and general
        visits to address questions and provide oversight of WFO
        operations, management, and administrative support. We also
        assessed the effectiveness of regional support during the
        transition of three new employees into key positions at
        Missoula. We concluded that regional oversight is adequate,
        and that the Western Region’s close involvement with the WFO
        has helped the office operate its programs effectively.

¬       Actions are being taken to improve the office’s training
        program. Missoula has a structured program of biannual
        training for the office as a whole and for each staff member.
        The science operations officer, who is responsible for the
        WFO’s training and research, plans to enhance training by using
        research studies as tools to broaden staff’s knowledge in key
        areas. However, the officer agreed with our finding that
        individual development plans for each staff member need to be
        completed and that training checklists need to be reviewed and
        updated.

In addition to highlighting Missoula’s many strengths, our review found a
number of managerial, administrative, and operational deficiencies that
require prompt attention.

¬       Although the Cooperative Observer and Skywarn
        programs are generally well run, there is room for
        improvement. The WFO’s Cooperative Observer and
        Skywarn programs primarily use volunteer observers to report
        on weather events. Although these programs are well run, their
        future is of concern to staff, who believe that maintaining
        observers for both programs could get more difficult as the
        current volunteers lose interest and give up their involvement.

 Commerce OIG Semiannual Report                             47              September 2001
                                 National Oceanic and Atmospheric Administration

                                        Staff members report having difficulty recruiting and replacing
                                        observers in isolated locations. They are concerned about a
                                        lack of NWS direction and support for the Cooperative
                                        Observer Program and are uncertain about its future direction.

                                   ¬    Several resource allocation issues need to be addressed.
                                        Although the Missoula WFO is a fairly efficient operation, the
                                        following areas require attention: (1) The office risks losing
                                        incident meteorologists, who provide on-site support to
                                        firefighters, to higher paying positions at interagency Geographic
                                        Area Coordination Centers; (2) many WFO personnel
                                        consider certain forecast products to be redundant or
                                        unnecessary; (3) electronic technicians spend too much time
                                        traveling to repair distant weather observation equipment.

                                        NWS has addressed the third item by agreeing to ensure that
                                        the WFO’s repair kits contain all necessary spare parts, thereby
                                        saving technicians from having to make extra trips to repair
                                        equipment.

                                   ¬    Internal controls are generally adequate, but several
                                        high-cost items are not properly regulated. Because of
                                        recent improvements in administrative controls, Missoula
                                        performs most administrative functions efficiently. However,
                                        inventory procedures need tightening: The office does not
                                        include some expensive items, such as all-terrain vehicles,
                                        snowmobiles, and trailers, on its inventory because they cost
                                        less than $5,000—the threshold amount for listing such items.

                                   ¬    Quality control needs to be more systematic. Like their
                                        San Angelo counterparts, Missoula staff did not consistently
                                        perform quality control reviews of office products. As a result,
                                        a few office products have been released with incorrect
                                        information. The overall quality of the products we reviewed
                                        appeared acceptable, but staff emphasized that the accuracy
                                        and completeness of products need improvement. WFO
                                        management needs to implement an ongoing quality control
                                        system and emphasize to all forecasters and technicians that
                                        products must be reviewed.




Commerce OIG Semiannual Report                    48                                    September 2001
National Oceanic and Atmospheric Administration

NOAA generally agreed with the recommendations we made to ad-
dress our concerns. (Office of Inspections and Program
Evaluations: IPE-14225)



NMFS Must Take Steps to Improve Salmon
Recovery Efforts in the Columbia River Basin

The Endangered Species Act of
1973 provides for the
conservation of species that are
approaching endangerment or
extinction throughout all or a
significant portion of their range,
as well as conservation of the
ecosystems on which they
depend. NOAA’s National
Marine Fisheries Service
implements the act for marine
and anadromous fish, such as
salmon, which migrate between
the ocean and inland waterways.

OIG reviewed certain aspects of
NMFS’s role in salmon recovery
in the Columbia River Basin. In
this effort, the agency interacts
with a number of organizations,
such as the Federal Caucus
(which is composed of NMFS
and eight other federal agencies)
                                                       Source: http://www.salmonrecovery.gov
and various groups representing
state and local governments,
Indian tribes, and private citizens.

Since 1991, under a process defined in the act, NMFS has determined
that 12 evolutionarily significant units (ESUs) in the Columbia Basin are
threatened or endangered. An ESU is a segment of a species that is
reproductively isolated and contributes substantially to the species’


 Commerce OIG Semiannual Report                              49                                September 2001
                                 National Oceanic and Atmospheric Administration

                                   genetic diversity. NMFS also issues the regulations and permits
                                   required by the act to provide for the protection of the identified ESUs.
                                   Our review found that NMFS could improve its salmon recovery efforts
                                   in the Columbia Basin by taking the following actions:

                                   ¬       Completing detailed recovery plans for each ESU. As
                                           required by the act, NMFS consulted with other federal
                                           agencies and reviewed their biological assessments of the
                                           causes of population declines and the mitigation measures
                                           necessary to reverse those declines. NMFS then developed
                                           and issued biological opinions on the activities proposed by
                                           these agencies. Although the agency has helped move the
                                           Federal Caucus toward a comprehensive strategy of
                                           coordinated ecosystem management, it must still develop
                                           detailed recovery plans for each ESU, as required by the act.
                                           These plans need to include site-specific management actions;
                                           estimates of the time and cost required to carry out these
                                           actions; and objective, measurable criteria that, when met, will
                                           allow an ESU’s removal from the endangered or threatened list.


                                   ¬       Improving its communication and collaboration with
                                           stakeholders. Developing an ecosystem management process
                                           for salmon is complicated because this effort involves many
                                           jurisdictions and affects stakeholders who have competing
                                           interests. As a result, NMFS must ensure that it communicates
                                           and collaborates effectively with the involved government
                                           entities, tribal authorities, and other stakeholders. Many
                                           participants in the salmon recovery effort whom we interviewed
                                           expressed concerns about NMFS’s interactions with them.
                                           Some criticized NMFS for failing to establish an effective local
                                           outreach program, and others stated that NMFS has been
                                           unable to develop the network needed to help build a
                                           consensus among interested parties. Stakeholders were
                                           particularly concerned about what they perceived as NMFS’s
                                           unwillingness to collaborate with them on the sharing and use of
                                           scientific data and the development of recovery options.

                                   In an April 27, 2001, memorandum to the Acting Assistant
                                   Administrator for Fisheries, we recommended that NMFS (1) complete
                                   the detailed recovery plans required by the act, and (2) carefully assess

Commerce OIG Semiannual Report                       50                                    September 2001
National Oceanic and Atmospheric Administration

and, as appropriate, address the concerns expressed by stakeholders
about its communication and collaboration with them. NMFS advised
us that it has formed teams to begin working on the detailed recovery
plans. In addition, the agency officials with whom we discussed
stakeholder concerns appeared to recognize that improved outreach
and collaboration are needed. (Seattle Regional Office of Audits)


NOAA Weather Radio Has a Reasonable
Expansion Strategy and an Effective Outreach Effort

The mission of the National Weather Service is to provide weather,
hydrologic, and climate forecasts and warnings for the United States
and its territories for the protection of life and property and the
enhancement of the national economy. One way that NWS
disseminates weather information is through NOAA Weather Radio.
This nationwide network of more than 600 stations broadcasts weather
warnings, watches, forecasts, and other information directly from
nearby WFOs 24 hours a day. NOAA Weather Radio is provided as a
public service and currently reaches approximately 90 percent of the
U.S. population.

OIG performed an audit survey of the proposed expansion of the radio
network to evaluate the following: (1) NWS’s strategy and plans for
deploying new transmitters to achieve its goal of increasing network
coverage to 95 percent of the U.S. population, and (2) its outreach
program for developing partnerships with private groups and state and
local governments to encourage organizations and homeowners to install
weather radio receivers.

In an August 24, 2001, memo to NOAA, we reported our conclusion
that the Weather Radio network has both a reasonable strategy for
selecting station sites and an effective outreach program. Because we
did not identify any issues that warranted further attention, we closed
out our work in this area. (Science and Technology Audits Division)




 Commerce OIG Semiannual Report                            51             September 2001
                                                        International Trade Administration

                                         $273,000, a figure that is comparable to the rent for similar
                                         properties in the local market.


                                 Overall, we are pleased with the actions taken to implement many of
                                 our 1999 recommendations and plan to continue monitoring
                                 US&FCS’s progress in this area. (Office of Inspections and
                                 Program Evaluations)


                                 Audit Reports Unresolved
                                 for More Than Six Months

                                 Software and Information Industry Association

                                 A financial assistance audit that we reported on in March 2001 (page
                                 42) looked at three cooperative agreements awarded to an industry
                                 trade association. For the first agreement, we recommended that
                                 $597,914 in questioned costs be disallowed because of inadequate
                                 support documentation. We also recommended recovery of $116,466
                                 in disbursements that exceeded allowable costs.

                                 In the second case, we recommended that $17,654 in costs be
                                 disallowed and that approximately $5,000 in excess disbursements be
                                 recovered. In the third case, we recommended that the awardee
                                 (1) establish a detailed activity report to support personnel costs and
                                 (2) obtain fidelity bonds covering any personnel authorized to disburse
                                 federal funds.




Commerce OIG Semiannual Report                     42                                     September 2001
                                 National Telecommunications
                                and Information Administration

The mission of the National
Telecommunications and
Information Administration is to
(1) serve through the Secretary of
Commerce as the principal
executive branch advisor to the
President on domestic and
international communications and
information policies, (2) ensure
effective and efficient federal use
of the electromagnetic spectrum,
(3) develop with other federal
agencies policies for international
communications and standards-
setting organizations, (4) serve as
the federal telecommunications
research and engineering center,
and (5) administer grants under the
Telecommunications and
Information Infrastructure
Assistance Program and the               Three Geostationary Operational Environmental Satellites (GEOS) at
Public Telecommunications                the Table Mountain Radio Quiet Zone monitor solar activity.
Facilities Program.                      Source: OIG


                                      Table Mountain Research Site in Colorado
                                      Needs To Be Upgraded and Maintained
                                      The Institute for Telecommunication Sciences (ITS), in Boulder,
                                      Colorado, provides research and engineering support for NTIA’s
                                      policymaking activities. ITS offers these services to other federal and
                                      nonfederal entities on a reimbursable basis. OIG recently audited
                                      selected efficiency and effectiveness issues at ITS. Our review covered
                                      a variety of matters, but we concluded that the only one requiring
                                      immediate attention was the management of the Table Mountain Radio
                                      Quiet Zone research site.

                                      The Table Mountain site is located on roughly 1,700 acres in a rural
                                      area about 11 miles north of Boulder. The site’s physical isolation and
                                      its status as one of only two radio quiet zones in the United States
                                      minimize disruptions to experiments and the collection of atmospheric
                                      and terrestrial data. The site has 10 users that conduct ongoing
                                      research—5 NOAA units, the U.S. Geological Survey, a university, two
                                      private companies, and a nonprofit organization. ITS has no current

Commerce OIG Semiannual Report                           52                                         September 2001
National Telecommunications and Information Administration




                                                                                               NTIA


                                                                                                              Policy
                                                                                 Spectrum
                                                                                                           Analysis and
                                                                                Management
                                                                                                           Development


                                                                                Telecom. and               Institute for
                                                                                 Information                 Telecom.
                                                                                Applications                Sciences


                                                                                           International
                                                                                              Affairs




     This 60-foot steerable satellite dish is one of two at Table Mountain
     that tracks the movement of quasars, pulsars, satellites, and the Space
     Shuttle. Source: OIG

ongoing experiments at the site, but uses it periodically for radio
equipment calibration and wave propagation measurements and testing.

When we began our review in 2000, the Table Mountain site was in
disrepair and had several health, safety, structural, and environmental
deficiencies that threatened its users, nearby residents, and federal
property. An earlier report by the Mountain Administrative Support
Center (MASC)—the Commerce unit that provides real property
management services to departmental facilities in the region—had
estimated that the site needed $360,000 in repairs to correct
deficiencies related to safety, structural stability, electrical systems, and
environmental liability. Since we began our review, relatively low-cost
actions have been taken to address some of the deficiencies that
required immediate attention, but periodic monitoring is needed to
prevent these problems from recurring. Other, more costly matters still
need remedial action.

Managing Table Mountain involves overseeing technical programs,
administrative functions, and maintenance and security operations. ITS

 Commerce OIG Semiannual Report                                          53                           September 2001
             National Telecommunications and Information Administration



                                 currently provides overall program management of the site by
                                 determining who will use the site and whether activities conducted by
                                 current or potential users are compatible. User organizations typically
                                 manage their individual technical programs and provide maintenance
                                 and security for the structures in which they operate. However, no
                                 organization oversees overall management of the site. In addition, the
                                 quality of building management is inconsistent and not well coordinated;
                                 maintenance of common areas and unused facilities has been neglected,
                                 as has general security. The administrative duties associated with the
                                 site, most of which are handled by MASC, include preparing
                                 environmental and safety reports required by law and regulations,
                                 completing property utilization surveys and other reports required by the
                                 General Services Administration, and dealing with the public.

                                 Our consideration of who should be responsible for managing Table
                                 Mountain revealed that although the property belongs to the
                                 government, no legal document exists to indicate that any particular
                                 agency owns the site or is responsible for its management. The
                                 property was originally acquired for use by the Department of
                                 Commerce. Federal Property Management Regulations delegate to
                                 Commerce the authority for real property management of laboratories
                                 used for instrument calibration and for oceanic and atmospheric
                                 research. However, we found no delegated authority for real property
                                 management in relevant Department Organization Orders that would
                                 establish the scope of such authority for NTIA and ITS.

                                 Authority for real property management in the Department is delegated
                                 to regional administrative support centers, which were established in the
                                 early 1980s. Typically, a Commerce operating unit enters into an
                                 agreement with the support center in its region to provide real property
                                 management services for its research sites on a reimbursable basis.
                                 However, the unit retains financial and decision-making authority for
                                 managing the site so that relevant technical and scientific needs of the
                                 site’s users are addressed. In this case, NTIA maintains that the
                                 Department’s Real Property Management Manual provides sufficient
                                 authority for ITS to continue its real property management
                                 responsibilities at the Table Mountain site.



Commerce OIG Semiannual Report                     54                                    September 2001
National Telecommunications and Information Administration



Table Mountain is a valuable resource that should be upgraded and
properly maintained to reduce the Department’s risk of loss resulting
from health, safety, structural, and environmental deficiencies and to
provide current and future users with a facility that can support high-
quality research.

We recommended that NTIA and MASC (1) enter into a formal
arrangement to clearly designate responsibility for overall management
of the Table Mountain site, (2) ensure that recent progress to improve
the site continues and that steps are taken to prevent the problems from
recurring, and (3) meet periodically with all users to coordinate activities
at the site. Both organizations generally agreed with our
recommendations. (Denver Regional Office of Audits: DEN-11928)




 Commerce OIG Semiannual Report                                55              September 2001
                                          Technology Administration

                                     Manufacturing Extension Partnership
The Technology Administration        Centers Fail to Report All Program Income
serves the needs of technology-
based industry, advocates federal    During this semiannual period, OIG completed three audits of
actions and policies to speed the    cooperative agreements under NIST’s Manufacturing Extension
transfer of technology from the
                                     Partnership (MEP) program. MEP assists small and medium-sized
laboratory to the marketplace, and
removes barriers for commer-         manufacturers via a nationwide network of 61 centers serving 400
cializing new technologies by        locations.
industry. It includes three major
organizations:                       The major finding of each audit was that none of the three recipients
Office of Technology Policy
                                     had fully reported program income. In fact, each recipient had program
works to raise national awareness
of the competitive challenge,        revenues, including income, local grants, and NIST funds, far in excess
promotes industry/government/        of the amount needed to cover eligible project expenses; as a result,
university partnerships, fosters     they were accumulating large amounts of cash. We concluded that
quick commercialization of federal   under federal regulations, project revenues in excess of eligible
research results, promotes
                                     expenditures should be reported as excess program income and used to
dedication to quality, increases
industry’s access to and partici-    reduce NIST’s share of costs. Our specific findings were as follows:
pation in foreign research and
development, and encourages the      A Connecticut center entered into three MEP cooperative agreements
adoption of global standards.        to support businesses by identifying and supplying new sources of
National Institute of Standards
                                     technical and business expertise and advanced technology, including
and Technology promotes U.S.
economic growth by working with      providing Y2K computer compliance assistance. The 4-year project
industry to develop and apply        period of the awards had total estimated costs of $12,660,713, with the
technology, measurements, and        federal share not to exceed $4,853,731. The recipient reported
standards. NIST manages four         incurred costs totaling $12,634,978 under the three agreements and
programs: the Advanced Technol-
                                     requested reimbursement of $4,836,304. Our audit found that the
ogy Program, the Manufacturing
Extension Partnership program, a     recipient had earned about $4.47 million in program income that was
laboratory-based measurement         not reported to NIST. Even though the recipient also underreported its
and standards program, and the       costs, we calculated that it had earned $675,712 in income above its
National Quality Program.            costs, none of which was credited to NIST. We recommended that
National Technical Information
                                     NIST recover $529,582 in excess disbursements. (Denver Regional
Service is a self-supporting
agency that promotes the nation’s    Office of Audits: DEN-13992)
economic growth and job creation
by providing access to information   A Wisconsin center was awarded a cooperative agreement to provide
which stimulates innovation and      direct technical assistance and other educational and training services to
discovery. NTIS accomplishes this
                                     manufacturers. The 68-month award period had total estimated costs
mission through two major
programs: information collection     of $26,733,146, with the federal share not to exceed $10,783,710.
and dissemination to the public,     For the 59-month period through November 2000 covered by our
and information and production       audit, the center claimed costs of $18,808,097 and submitted
services to federal agencies.        reimbursement requests totaling $8,044,001. Our audit revealed that
                                     the center had earned $2.23 million in program income under the
Commerce OIG Semiannual Report                        56                                     September 2001
Technology Administration

agreement, but did not report it to NIST. We recommended that NIST
recover or be credited for the excess disbursements, which amounted
to $641,182. (Denver Regional Office of Audits: DEN-14103)

A Pennsylvania center was awarded an MEP cooperative agreement
to fund its manufacturing extension efforts, as well as to provide Y2K                Technology
assistance. For the 2-year award period ending in June 2001, the total               Administration
estimated project cost was $2.33 million, with the federal share not to
exceed $610,000. As of February 2001, the center had submitted
reimbursement requests for the first year of the award totaling               NIST                    NTIS
$572,418. We found that the center did not report to NIST a
$129,229 carryover of program income earned under a previous NIST
award or any of the $412,163 in program income generated under the                     Technology
                                                                                         Policy
audited award. Although the center also underreported its costs, it
nevertheless had $328,887 in excess program income. We
recommended that NIST recover $63,256 in excess federal
disbursements. (Denver Regional Office of Audits: DEN-14046)


OIG Audit Questions Equipment Costs
Charged to Award Without NIST Approval

NIST awarded an Advanced Technology Program cooperative
agreement to a private firm to act as lead administrator of a joint venture
for conducting research on the development of a new technology. The
award was for the period from November 1, 1995, through October
31, 2000. It had total estimated costs of $17,699,654, with the federal
government’s share not to exceed $8,849,819, or 49.9 percent of
allowable costs.

The firm requested early termination of the award, effective September
11, 1998, because of the venture’s inability to meet the project’s
research goals. NIST approved the request. The budget was amended
to reduce total estimated costs to $8,418,876, with the federal share
not to exceed $4,209,171, and the project closeout period was
extended to August 9, 1999. The firm ultimately claimed total project
costs of $8,227,507, and was reimbursed $4,112,931 by NIST.

We audited the award to (1) determine whether the firm’s accounting
and financial management system complied with federal regulations and
program requirements; (2) calculate final incurred costs, concentrating

 Commerce OIG Semiannual Report                              57                              September 2001
                                                                            Technology Administration


on equipment and depreciation charges; and (3) identify any instances in
which the recipient failed to comply with the award terms and
conditions.

We determined that the firm’s accounting and financial management
system was generally adequate and that the firm was materially in
compliance with the award terms and conditions. However, we
questioned $364,339 of the claimed costs, almost all of which involved
equipment costs charged to the award without NIST’s required
approval.

We recommended that NIST disallow the questioned costs and recover
disbursed federal funds of $182,633. The firm disagreed with most of
our questioned costs, claiming that the equipment costs were allowable.
(Denver Regional Office of Audits: DEN-14032)


Audit Reports Unresolved
for More Than Six Months
Illinois Manufacturing Extension Center

Our March 2001seminannual report (page 62) detailed the findings of
an interim financial assistance audit of a cooperative agreement under
NIST’s Manufacturing Extension Partnership program in which we
questioned $2.5 million of claimed costs, mainly because of insufficient
support documentation. We recommended that NIST (1) require the
award recipient to reduce its total claimed costs by the amount of the
questioned costs, and (2) direct subrecipients to revise their accounting
procedures to claim only supported and allowable costs.




  Commerce OIG Semiannual Report                           58                             September 2001
Departmental Management


OIG Conducts Independent Evaluation Under
Government Information Security Reform Act

OIG recently completed an independent evaluation of the Department’s                         Office of
information security program, as required by the Government                               the Secretary
                                                                                           Staff Offices
Information Security Reform Act. Our objective was to determine
whether the Department’s security program and practices comply with
the requirements of the act, which seeks to ensure proper management           Business
                                                                                Liaison               Public Affairs
and security for federal information resources. We based our evaluation
on the results of previous OIG security-related audits and inspections,
                                                                                                          Chief
GAO’s recent examination of Commerce security, and selected                     General
                                                                                                       Information
                                                                                Counsel
security assessments contracted for by individual operating units.                                       Officer


Information security weaknesses throughout Commerce have                      Legislative and          Policy and
                                                                             Intergovernmen-           Strategic
prompted us to identify this problem as one of the Department’s Top              tal Affairs            Planning
10 Management Challenges. In addition, GAO’s recently completed
penetration testing of information systems and networks based in
Commerce headquarters revealed pervasive computer security
weaknesses that place sensitive systems at serious risk.

The Department recognizes the severity of this issue and is addressing it
aggressively. In July, the Secretary directed senior managers to give                       CFO and
the task of improving information security high priority, sufficient                        Assistant
                                                                                          Secretary for
resources, and their personal attention. His recent restructuring of                      Administration
information technology (IT) management is designed to increase the
authority and effectiveness of chief information officers throughout the     Exec. Budgeting
                                                                             and Assistance                Security
Department. Commerce has also formed an IT security task force to             Management
develop a comprehensive information security program. These are
important steps toward making the security of systems, networks, and
                                                                                                       Financial
data Department-wide a fundamental component of Commerce’s                       Budget
                                                                                                      Management
business operations.
                                                                              Management                Human
We must note, however, that because this area has not received                    and                 Resources
                                                                              Organization            Management
adequate attention in the past, developing and overseeing an effective
information security program will require substantial effort.
                                                                              Acquisition                    Civil
                                                                              Management                    Rights
¬       IT security deficiencies should be reported as material
        weaknesses as appropriate. OMB Circular A-130 requires
                                                                                                        Small and
        operating units to identify such deficiencies pursuant to Circular   Administrative
                                                                                                     Disadvantaged
                                                                               Services
                                                                                                     Business Util.


 Commerce OIG Semiannual Report                               59                                   September 2001
                                                           Departmental Management

                                     A-123 and the Federal Managers’ Financial Integrity Act
                                     (FMFIA) if it is determined that there is no assignment of
                                     security responsibility, no security plan, or no accreditation. We
                                     have confirmed that deficiencies related to these elements exist
                                     throughout the Department. Commerce must work with its
                                     operating units to ensure that the existence of such material
                                     weaknesses are appropriately identified and reported under
                                     FMFIA.

                                 ¬   Additional efforts are needed to improve risk assessment,
                                     security planning, and test and evaluation. Commerce IT
                                     systems frequently lack risk assessments and security plans; and
                                     vulnerability assessments have been completed for less than 10
                                     percent of the IT assets deemed to be part of the nation’s
                                     critical infrastructure. When these elements do exist, they
                                     frequently have not been finalized or approved by management.
                                     Techniques for information security control are not tested and
                                     evaluated periodically. Some positions that involve access to
                                     sensitive data and systems do not have the necessary risk
                                     designations, which can lead to inadequate background
                                     investigations.

                                 ¬   Additional efforts are needed to establish an acceptable
                                     Department-wide security program, evaluate
                                     performance, and ensure employee training. Commerce’s
                                     information security policy is out of date. It needs to be
                                     revised and expanded. While the Department has recently
                                     improved its oversight of information security, it performs few
                                     information security reviews. As a result, many Commerce
                                     systems lack adequate procedures and control techniques, a
                                     situation that puts both information and equipment at risk.
                                     Moreover, rigorous and ongoing security training is not
                                     conducted.

                                 ¬   Procedures for detecting, reporting, and responding to
                                     security incidents should be improved. Only 4 of 15
                                     Commerce operating units have a formal incident response
                                     capability, and most have not installed intrusion detection
                                     systems. In addition, most units have weak or nonexistent
                                     auditing capabilities. The lack of auditing, coupled with weak


Commerce OIG Semiannual Report                 60                                    September 2001
Departmental Management

     intrusion detection systems, makes it difficult for operating units
     to know when a security incident has occurred or who caused
     it.

¬    Capital asset plans should identify security requirements
     more explicitly and link them to security cost estimates.
     While most fiscal year 2002 capital asset plans addressed
     security, several did not, and most failed to identify security
     costs. These costs were also omitted from the OMB budget
     request for several projects having capital asset plans. The FY
     2003 plans tend to have more detailed discussions of security,
     although most still do not identify costs. Moreover, many plans
     do not clearly identify their security requirements, and those that
     estimate costs do not discuss the basis of the estimate.

¬    Critical asset identification needs refinement. The
     reliability of the inventory of critical assets—those assets
     deemed essential to the minimal functioning of the economy— is
     questionable because of weaknesses in the methodology used
     to gather asset data, and because of operating units’ failure to
     consider the risks inherent in their network connections with
     external systems. New criteria developed by the federal Critical
     Infrastructure Assurance Office identify critical assets by
     determining how quickly such assets would have to be
     reconstituted in an emergency. Using the new criteria, the CIO’s
     office expects to significantly reduce the number of assets on the
     inventory list from the current number of 241, allowing attention
     to be focused on the most critical.

¬    The Department needs to give guidance and develop
     procedures to ensure the security of contractor-provided
     IT services. Outsourcing of IT services, such as network
     support and web site operations, is widespread. Commerce
     must ensure that contracts for IT services require contractors to
     comply with security regulations, guidance, and policy.
     However, because Department policies contain little instruction
     for integrating security into acquisitions, many contracts are
     devoid of security provisions.




Commerce OIG Semiannual Report                             61              September 2001
                                                                Departmental Management
                                 ¬       Information security plans are frequently not carried out
                                         throughout the life cycle of agency systems. Information
                                         security has yet to become an integral component of Commerce
                                         business operations, and as a result, fundamental responsibilities
                                         are frequently not carried out as systems are designed,
                                         developed, and operated. The Department’s recent efforts to
                                         improve information security—if accompanied by continued
                                         executive-level attention and adequate resources—are important
                                         steps toward building a more effective security program.

                                 Because our evaluation was based primarily on previous work, our
                                 report contained no recommendations. (Office of Systems
                                 Evaluation: OSE-14384)


                                 Use of Internet “Cookies” and “Web Bugs”
                                 Raises Privacy and Security Concerns
                                 Persistent Internet cookies are data devices stored on web users’ hard
                                 drives that can identify users’ computers and track their browsing
                                 habits. Web bugs are software codes that monitor who is reading a
                                 web page. In addition to tracking browsing habits, web bugs can
                                 download files from and upload files to a user’s computer. These
                                 technologies can be employed in ways that would violate the privacy of
                                 individuals visiting web sites. In addition, web bugs can pose security
                                 threats.

                                 OIG evaluated the use of persistent Internet cookies and web bugs by
                                 Commerce Internet sites, as well as the adequacy of the privacy
                                 statements posted on the main web pages of the Department and its
                                 operating units. We conducted our evaluation in response to Public
                                 Law 106-554, the Consolidated Appropriations Act of 2001. This law
                                 requires the Inspector General of each agency to submit a report to the
                                 Congress disclosing any activity that collects information relating to any
                                 individual’s access or viewing habits on the agency’s Internet sites.

                                 We found that most of the Department’s Internet sites do not use
                                 persistent cookies or web bugs. However, we also discovered the
                                 following:

                                 ¬       In several instances, persistent cookies were being used without
                                         a compelling reason or the approval of the Secretary of
                                         Commerce, as required by Department and OMB policy.
Commerce OIG Semiannual Report                      62                                    September 2001
Departmental Management
¬       A number of web pages were using web bug technology. At the
        time of our fieldwork, the Department did not have a policy
        regulating web bug use. On April 24, the Chief Information
        Officer issued a memorandum that established a web bug policy
        similar to that for persistent cookies.

¬       Many of the operating units’ privacy statements do not provide
        all of the information required by the Department’s privacy
        policy.

We recommended that the Department’s Chief Information Officer
direct CIOs and senior management at the operating units to implement
a strategy for controlling the use of persistent cookies and web bugs
and to certify annually that the unit is complying with the Department’s
applicable policies. We further recommended that they be instructed to
revise their privacy statements to comply with Commerce policy.

The Department’s CIO agreed with our findings and quickly
promulgated a policy that addressed the use of web bugs. The CIO
also took action to help ensure that the cookies we had identified were
removed, and began working to eliminate the web bugs and develop a
uniform privacy statement. (Office of Systems Evaluation: OSE-
14257)


Program for Designating Risk and
Sensitivity Needs To Be Strengthened

OIG evaluated the Department’s program for designating positions
according to their level of risk and sensitivity. Risk designations reflect
the potential damage an individual in a position of public trust could
cause to the efficiency and integrity of government programs and
operations. Sensitivity designations reflect the potential adverse impact
on national security associated with a position. This evaluation was
prompted in part by our recent review of security measures for the
Census Bureau’s Advance Retail Sales Principal Federal Economic
Indicator. Our findings in this review suggested that inadequate
procedures for assigning appropriate risk and sensitivity designations,
and for conducting associated background investigations may exist
elsewhere in Commerce.



 Commerce OIG Semiannual Report                                63             September 2001
                                                                Departmental Management

                                 We issued the following findings and recommendations:

                                 ¬       Departmental guidance for designating positions is out of
                                         date, and positions are designated incorrectly. Department
                                         Administrative Order (DAO) 202-731 and the Personnel
                                         Security Manual are the official Department-level documents
                                         that provide guidance for designating levels of risk and
                                         sensitivity associated with Commerce positions and for
                                         conducting appropriate background investigations. These
                                         documents were issued in 1989 and 1988, respectively, and
                                         thus do not address important governmentwide changes to
                                         guidance for designating positions and conducting related
                                         investigations.

                                 Therefore, Commerce operating units have no current, official
                                 Department-level instruction for designating public trust and national
                                 security positions and for conducting adequate background
                                 investigations. As a result, some positions of public trust are designated
                                 according to their level of sensitivity rather than their level of risk—a
                                 situation that can lead to inappropriate background investigations. Also,
                                 risk designations are sometimes inconsistent with a position’s level of
                                 responsibility and trust. Moreover, the duties and authority of personnel
                                 involved in the designation process are not clearly defined; and human
                                 resources, security, and management officials are often unsure of their
                                 responsibilities.

                                 We advised the Department to assess the responsibilities and authorities
                                 associated with sensitivity and risk designations, including the role of
                                 managers. Commerce must determine how those responsibilities and
                                 authorities will be allocated and make certain that management,
                                 personnel, and security officials understand their duties.

                                 We also recommended that the Department ensure the following actions
                                 occur:

                                         1.      Managers and staff from both the Office of Security and
                                                 the Office of Human Resources Management attend
                                                 training approved by the Office of Personnel
                                                 Management (OPM) for designating risk and sensitivity




Commerce OIG Semiannual Report                     64                                     September 2001
Departmental Management

                levels and determining appropriate background
                investigations.

        2.      The DAO and the manual are updated to include
                OPM’s latest guidance and clear delineation of the roles
                and responsibilities of heads of operating units, other
                managers and supervisors, servicing personnel officers,
                and security officers.

        3.      Revised departmental guidance is distributed to all
                operating units.

        4.      Human resources and security personnel in the
                operating units receive appropriate training to implement
                the new guidance.

The Department’s Office of Security and Office of Human Resources
Management are coordinating efforts to update the DAO and the
manual so that they reflect current governing regulations.

¬       Records of personnel security investigations are
        incomplete, and employees are not appropriately
        investigated. Commerce lacks up-to-date, complete
        information on employee risk or sensitivity levels and on the
        type and currentness of associated investigations. During our
        review of the Advance Retail Sales indicator, we found that the
        the Office of Security’s investigation records for many Census
        Bureau employees did not indicate the type of background
        investigation performed. The office uses two automated
        systems to track investigations, but in many cases, neither
        contains the needed information. We also found that some
        employees did not have the level of background investigation
        required by the risk associated with their positions.

We later reviewed a sample of investigation records provided by the
Office of Security for staff of BXA, NIST, and NOAA, and found
additional instances in which employees did not have the background
investigation required by the sensitivity or risk designation of their
positions. In some cases, the level of investigation was too low to
assure that employees could be trusted with the information to which


 Commerce OIG Semiannual Report                             65              September 2001
                                                               Departmental Management

                                 they have access. In other cases, the level was too high and hence
                                 unnecessarily expensive and intrusive.

                                 We recommended that the Office of Human Resources Management
                                 and the Office of Security (1) improve record keeping to maintain
                                 accurate background investigation data for all employees, and
                                 (2) develop a plan to determine whether current positions within the
                                 Department are properly designated according to risk and whether
                                 reinvestigations are being conducted as necessary.

                                 The Chief Financial Officer and Assistant Secretary for Administration
                                 agreed with our findings and recommendations. The Deputy Assistant
                                 Secretary for Security and the Director of Human Resources
                                 Management are coordinating development of a plan to address them.
                                 (Office of Systems Evaluation: OSE-14486)


                                 CAMS Contract Administration Has
                                 Improved, but Further Actions Are Needed

                                 The Department is developing the Commerce Administrative
                                 Management System (CAMS)—a single, integrated financial
                                 management system that complies with OMB requirements. In 1994, a
                                 contract was awarded for an accounting software package, known as
                                 the Core Financial System, as well as for program management,
                                 development, testing, maintenance, and implementation. This contract
                                 also provided for support to implement functional systems, including
                                 payroll, personnel, procurement, property, travel, and grants
                                 management. The period of performance was 1 year, with options for
                                 9 additional years. Total life-cycle costs of the contract were estimated
                                 at $31.9 million.

                                 In fiscal year 1997, problems with the software provided by a
                                 subcontractor prompted the Department to take responsibility for the
                                 Core Financial System and retain a new contractor for software
                                 development. Concerned with increased costs and schedule delays,
                                 Commerce redefined CAMS to exclude many of the planned functional
                                 systems, leaving intact the Core Financial System, three integrated
                                 functional modules—labor/time and attendance interfaces with the
                                 National Finance Center, bankcard, and small purchases—and the
                                 Core Financial System data warehouse. In August 1999, NOAA’s

Commerce OIG Semiannual Report                     66                                    September 2001
Departmental Management

Systems Acquisition Office assumed responsibility for administering the
CAMS contracts.

The original contractor provides most of its services through labor-hour
task orders issued against the base contract. Software development
and maintenance services from the second contractor are obtained
under contracts and delivery orders against General Services
Administration (GSA) schedule contracts, mostly on a labor-hour basis.

CAMS is now operational at the Census Bureau, Office of the
Secretary, EDA, ESA, MBDA, OCS, OGC, and OIG. Implementation
is under way at NOAA and NIST. As of April 2001, total funds
awarded to the two contractors amounted to more than $85 million.
CAMS is scheduled to be fully operational by the end of FY 2003.

OIG recently reviewed the effectiveness of CAMS contract
administration and found that it has improved under the Systems
Acquisition Office. However, we also identified a number of areas
where improvements are needed:

¬       The original contract should be restructured and
        renegotiated. When the contract was awarded, the statement
        of work was vague and undefined, and the terms and conditions
        were unclear. Since then, the strategy for developing and
        implementing CAMS has changed significantly, substantial cost
        increases and schedule revisions have occurred, and numerous
        modifications have been issued. The contract does not
        accurately reflect the CAMS strategy or the responsibilities of
        the contractor or the government. This lack of clarity hampers
        the Department’s ability to administer the contract and monitor
        results. The CAMS program office, in consultation with the
        Office of General Counsel, needs to thoroughly evaluate the
        costs and benefits of restructuring and renegotiating the original
        CAMS contract.

¬       Contracts and task orders should be performance based
        and results oriented. Contract types that maximize contractor
        performance and lessen risk to the government are essential to
        the integrity of the contracting process. Performance-based
        service contracting—which emphasizes results rather than
        methods—helps ensure that the government receives what it

 Commerce OIG Semiannual Report                              67              September 2001
                                                            Departmental Management

                                     requires. Instead of using performance-based contracting to
                                     obtain services from CAMS contractors, however, the
                                     Department has used time-and-material or labor-hour
                                     contracts, both of which increase the chances that costs will
                                     escalate and services will not be received. Since our review,
                                     the contracting officer has taken steps to use performance-
                                     oriented approaches. We urge the Department to make use of
                                     all such approaches that maximize outcomes whenever possible.

                                 ¬   Price and cost analysis should be documented. We found
                                     inadequate documentation for price and cost analysis of new
                                     orders and contracts, as well as for significant change order
                                     modifications. The reasonableness of prices must be determined
                                     before contracts, task orders, and delivery orders are awarded.
                                     This determination should be supported by price and cost
                                     analysis, as well as by advice from the program’s technical
                                     experts. The requirement for price and cost analysis also
                                     applies to delivery orders for services placed against a GSA
                                     schedule, as is done for the CAMS software contract.

                                 ¬   Communications with and training of bureau technical
                                     representatives need improvement. To simplify contract
                                     monitoring efforts, the CAMS contracting officer has designated
                                     technical representatives at the larger bureaus. During our
                                     review, Census, NIST, and NOAA representatives expressed a
                                     desire for better communications about monitoring and
                                     reporting procedures with the CAMS contracting office. We
                                     believe that regular meetings should be held with these parties to
                                     discuss common concerns and provide consistent direction.
                                     The use of performance-based service contracting will increase
                                     the need for such communication, as well as for training for all
                                     involved staff.

                                 ¬   Appearance of personal services contracts should be
                                     avoided. Because the government is normally required to hire
                                     employees through accepted civil service procedures, the use of
                                     personal services contracts is generally prohibited. Such
                                     contracts imply an employer-employee relationship between the
                                     government and the contractor’s personnel. Our review
                                     revealed that there is at least the appearance of such a
                                     relationship with the CAMS contractors’ staff. Commerce

Commerce OIG Semiannual Report                 68                                    September 2001
Departmental Management

        needs to ensure that personal services contracts do not exist,
        and must minimize even the appearance of such contracts.

The Department concurred with four of the six recommendations we
made to address the weaknesses we identified. It did not agree with our
recommendations to evaluate the costs and benefits of restructuring the
contract or to provide additional training in performance-based
contracting to the alternate contracting officer’s technical representatives
(ACOTRs).

We continue to believe, however, that the numerous changes made to
the contract increase the risk should disputes or disagreements arise
between the contractor and the government. In addition, the training
currently provided to the ACOTRs on performance-based service
contracting is limited to preparing work statements. It should be
expanded to cover the preparation and use of quality assurance and
surveillance plans. (Office of Systems Evaluation: OSE-14086)


Department Is Taking Actions to
Bolster Management of Trade Missions

In early April 2001, we reported the results of our review of the
Department’s March 1997 trade mission policy and its implementation.
The significance of the issues addressed in that review prompted us to
provide a detailed discussion of our findings and recommendations in
our previous semiannual report (see March 2001 issue, page 67).

We concluded that the policy has greatly improved the Department’s
management of trade missions. In particular, it has bolstered trade
mission planning, the recruitment and selection of private sector
participants, and the clarity of the process. However, we
recommended additional steps to increase the policy’s effectiveness and
further improve the Department’s management of trade missions. In
response to our report, the Department and ITA indicated they would
collaborate on an action plan to address our recommendations.

In September, we met with officials from the Department’s Office of
Business Liaison (OBL), the Office of General Counsel, ITA, and
US&FCS to discuss progress made in implementing our
recommendations. At the time of our meeting, the first senior-level

 Commerce OIG Semiannual Report                               69               September 2001
                                                                   Departmental Management

                                 trade mission under the current administration (scheduled for mid-
                                 October 2001) had not yet occurred, but excellent progress was being
                                 made to strengthen the Department’s management of missions. Both
                                 OBL and ITA were drafting more specific and improved guidelines and
                                 procedures for managing the trade mission process and for developing
                                 other tools to ensure that each mission is carried out in accordance with
                                 Commerce policy. Departmental officials report the following actions:

                                 ¬       OBL has set up automated databases to better track participant
                                         applications and is ensuring that more detailed records of
                                         decisions on participants are being kept.

                                 ¬       OBL has hired a contractor to help make participant
                                         applications accessible online and to enable electronic
                                         information collection and transfer to a central database.

                                 ¬       US&FCS has developed a series of documents, checklists, and
                                         procedures for use by trade mission organizers to ensure that
                                         missions are managed consistently and documented
                                         appropriately, and that compliance with the policy is thus
                                         demonstrated.

                                 Also in our April report, we suggested that the Department take the
                                 following actions to strengthen the trade policy’s implementation and
                                 application to future missions: (1) Determine whether the policy is
                                 appropriate for all “reverse” trade missions, which bring foreign buyers
                                 to visit U.S. companies; (2) clarify the “diversity” criterion on the trade
                                 mission application and specify how it should be used in the selection
                                 process; (3) reexamine the requirement regarding membership of the
                                 second-level selection panel to determine whether it poses an
                                 appearance problem for the Department. The Office of the Secretary
                                 stated that it is studying these issues and will soon decide whether and
                                 how it will revise the trade mission policy and related procedures.
                                 (Office of Inspections and Program Evaluations: IPE-13934)




Commerce OIG Semiannual Report                      70                                      September 2001
 Departmental Management

Departmental Fund Management
Practices Need Improvement

OIG conducted an audit survey of selected aspects of the Department’s
practices in managing three major funds: the Salaries and Expenses
Fund (S&E), which, supported by a direct appropriation, is used
primarily to fund the personnel costs of senior departmental officials and
their key staff; the Working Capital Fund (WCF)—an
intragovernmental fund for support services that can most efficiently be
provided centrally (security, human resources, and legal counsel, for
example); and the Gifts and Bequests Fund (G&B), which consists of
donations made to Commerce that can be used in carrying out its work.
Our review of the Salaries and Expenses Fund included an in-depth
look at the Advances and Reimbursements Program (A&R).

Twenty-one offices and operations are supported by these funds,
whose costs totaled approximately $194 million in FY 2000. Over the
past 5 years, the costs of the S&E, G&B, and A&R have remained
relatively constant, but those of the WCF have increased by about 50
percent.

Our survey sought to determine whether (1) charges to the funds are
consistent with the funds’ stated purposes, (2) recent increases in
charges to the operating units appear reasonable and justified, and
(3) methods for allocating charges to the units are reasonable and
properly applied. We reached the following conclusions:

¬       Charges within the funds appear consistent with each
        fund’s stated purpose. The Department seems to have a
        reasonable basis for segregating costs among the funds.
        However, it lacks clear, written operating policies and
        procedures for administering the funds, and in some instances,
        the description of the basis of charge in the relevant guidance
        did not accurately state the method used to allocate costs.

¬       Recent increases in charges to the operating units appear
        justified. We reviewed billings for 6 of the 21 offices that are
        supported through these funds, inquiring about any significant
        fluctuations. The explanations for all such fluctuations appeared
        reasonable. In addition, our comparison of operating estimates


 Commerce OIG Semiannual Report                              71              September 2001
                                                               Departmental Management

                                         with actual total charges to Commerce units revealed no
                                         instances of unexplained costs.

                                 ¬       Procedures for allocating costs to Commerce operating
                                         units appear reasonable and properly applied. We did not
                                         note any instances in which the procedures for allocating costs
                                         unfairly burdened or benefited any operating unit. Nor did we
                                         identify any instances of the procedures being improperly
                                         applied.

                                 ¬       Operating unit concerns, cost containment efforts, and the
                                         role of the WCF Advisory Committee need management
                                         attention. Although the Department is aware of operating unit
                                         concerns regarding fund management, no formal mechanism
                                         exists to ensure that such concerns are addressed. In addition,
                                         our survey did not reveal any effective internal control measures
                                         to contain WCF costs. The WCF Advisory Committee, which
                                         is composed of representatives from the Department and each
                                         operating unit, was established in March 2000 to communicate
                                         and disseminate WCF information to the units, as well as to
                                         obtain their input. We found that the committee lacks a formal
                                         charter and a clear mission, and does not appear to track and
                                         address specific concerns of the units or provide input on the
                                         impact of departmental office budgets on a unit’s funding.

                                 Our primary recommendation was that the Department more clearly
                                 define the role of the WCF Advisory Committee. The committee could
                                 provide oversight to the fund and thus accomplish the following:
                                 (1) ensure that WCF operations are transparent and accountable to
                                 operating unit customers, (2) make certain that adequate financial
                                 management controls are established, (3) review and provide feedback
                                 on annual WCF budgets, and (4) communicate with and address
                                 concerns raised by the operating units.

                                 In response to a briefing we provided on our survey results, the
                                 Department prepared an audit action plan detailing the steps it intended
                                 to take to address our recommendations. One of the Department’s
                                 planned steps is to replace the advisory committee with an executive
                                 board that has decision-making authority. We believe that the planned
                                 actions will meet the intent of our recommendations. (Financial
                                 Statements Audits Division: FSD-14271)

Commerce OIG Semiannual Report                     72                                    September 2001
Departmental Management

Preaward Financial Assistance Screening
As part of our ongoing emphasis on prevention of fraud and
mismanagement, we continue to work with the Office of Executive
Budgeting and Assistance Management, NOAA and NIST grant
offices, and EDA program offices to screen the Department’s proposed
grants and cooperative agreements before award. Our screening serves
two functions: It provides information on whether the applicant has
unresolved audit findings and recommendations on earlier awards, and it
determines whether a name check or investigation has revealed any
negative history on individuals or organizations connected with a
proposed award.

During this period, we screened 1,926 proposed awards. For 34 of the
awards, we found major deficiencies that could affect the ability of the
prospective recipients to maintain proper control over federal funds. On
the basis of the information we provided, the Department delayed
awards until concerns were satisfactorily resolved, and established
special conditions for one award to adequately safeguard federal funds.
(Office of Audits)




                                Preaward Screening Results

              Results                                Number                Amount

      Awards delayed to resolve concerns                 33                $12,867,490


     Special award conditions established                 1                  $863,120




 Commerce OIG Semiannual Report                               73                         September 2001
                                                                Departmental Management

                                 Indirect Cost Rates

                                 Under OMB policy, a single federal agency—the “cognizant”or general
                                 oversight agency— is responsible for reviewing, negotiating, and
                                 approving indirect cost rates for public and private entities that receive
                                 funds under various federal programs. Normally, the federal body that
                                 provides the most direct funding to an entity is chosen as its cognizant or
                                 general oversight agency. OMB has designated Commerce as the
                                 cognizant agency for about 280 economic development districts, as well
                                 as for a number of state and local government units. From time to time,
                                 the Department also has oversight responsibilities for other recipient
                                 organizations.

                                 Commerce has authorized the Office of Inspector General to negotiate
                                 indirect cost rates and review cost allocation plans on its behalf. OIG
                                 reviews and approves the methodology and principles used to pool
                                 indirect costs and establish an appropriate base for distributing those
                                 costs to ensure that each federal, state, and local program bears its fair
                                 share.

                                 During this period, we negotiated 12 indirect cost rate agreements with
                                 nonprofit organizations and government agencies, and reviewed and
                                 approved 19 cost allocation plans. We also provided technical
                                 assistance to recipients of Commerce awards regarding the use of rates
                                 established by other federal agencies and their applicability to our
                                 awards. We continued to work closely with first-time for-profit and
                                 nonprofit recipients of Commerce awards to establish indirect cost
                                 proposals that are acceptable for OIG review. (Atlanta Regional
                                 Office of Audits)




Commerce OIG Semiannual Report                      74                                     September 2001
Departmental Management

Nonfederal Audit Activities

In addition to undergoing OIG-performed audits, certain recipients of
Commerce financial assistance are periodically examined by state and
local government auditors and by independent public accountants.
OMB Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, sets forth the requirements for most of
these audits. For-profit organizations that receive Advanced
Technology Program funds from NIST are audited in accordance with
Government Auditing Standards and NIST Program-Specific Audit
Guidelines for ATP Cooperative Agreements, issued by the
Department.

We examined 159 audit reports during this semiannual period to
determine whether they contained any findings related to Department
programs. For 73 of these reports, the Department acts as oversight
agency and monitors the audited entity’s compliance with the OMB
circular or NIST’s program-specific reporting requirements. The other
86 reports are from entities for which other federal agencies have
oversight responsibility.




                                Nonfederal Audit Activities

           Report Category           OMB A-133                 ATP Program-      Total
                                      Audits                   Specific Audits
      Pending (April 1, 2001)                11                         37         48

      Received                              130                         79        209

      Examined                              105                         54        159

      Pending (September 30, 2001)           36                         62         98




 Commerce OIG Semiannual Report                           75                         September 2001
                                                                  Departmental Management

                                 The following table shows a breakdown by bureau of the $233 million
                                 in Commerce funds audited.



                                        Breakdown by Bureau


                                        Bureau                               Funds

                                 EDA                                     $ 32,917,275

                                 MBDA                                          188,867

                                 NIST                                       86,119,042*

                                 NOAA                                        8,349,887

                                 NTIA                                          767,699

                                 Multiagency                               103,696,285

                                 Agency not identified                       1,105,186

                                           Total                         $233,144,241

                                    * Includes $77,367,568 in ATP program-specific audits.




                                 We identified a total of $2,921,117 in questioned costs. In most
                                 reports, the Department’s programs were considered nonmajor,
                                 resulting in limited transaction and compliance testing against laws,
                                 regulations, and grant terms and conditions. The 10 reports with
                                 Commerce findings are listed in Appendix B-1. (Atlanta Regional
                                 Office of Audits)




Commerce OIG Semiannual Report                      76                                       September 2001
Investigative Highlights

OIG’s Office of Investigations (OI) investigates allegations of fraud or
other wrongdoing that impacts Commerce programs and operations,
including criminal or otherwise prohibited activities engaged in by
employees, contractors, or recipients of financial assistance. Staffed by
special agents located in Washington, D.C., Denver, and Silver Spring,
Maryland, OI works closely with the Department of Justice and with
U.S. Attorneys’ offices throughout the country to prosecute criminal and
civil actions in order to punish offenders and recover losses suffered by
the government as a result of fraud and misconduct.

Like their counterparts in most OIG offices, our special agents have full
law enforcement powers as special deputy U.S. marshals under a
deputation agreement with the Department of Justice. We also work
with the FBI and other federal law enforcement agencies to investigate
matters of mutual interest. The results of OIG investigations of
employee misconduct are provided to agency officials to support
appropriate disciplinary and administrative actions.

During this semiannual period, OIG investigations led to two convictions
and the filing of either indictments or criminal informations against two
individuals. Six matters were referred to the Department of Justice for
prosecution. In addition, the Department took five personnel actions as
a result of OI casework. Below are highlights of our investigative
activity during the past 6 months.


OIG Investigators Participate in
National Counterterrorism Effort

Commerce OIG special agents from our three field offices volunteered
their assistance in the combined law enforcement effort to investigate the
attacks on the World Trade Center and the Pentagon. Our agents
joined with the FBI, fellow members of the IG community, and other
federal agencies to mobilize a massive, unprecedented investigative
response to this attack on our nation. This effort included the processing
of crime scenes and evidence, investigation of suspected terrorists and
terrorist organizations, and implementation of programs and activities
designed to thwart or prevent future terrorist acts.

After completing search and recovery operations at the Pentagon, OIG
agents helped FBI and Department of Defense investigators collect

 Commerce OIG Semiannual Report                              77              September 2001
                                                                      Investigative Highlights

                                 forensic evidence and classified material, working in teams to sift
                                 through the wreckage for documents, weapons, aircraft parts, personal
                                 effects, and other evidentiary material. Despite the inherent difficulties
                                 posed by the biohazardous working environment, and the severe
                                 physical and emotional toll these duties exacted, agents worked
                                 multiple shifts of 10 to 12 hours a day, and completed the operation in a
                                 little more than a week’s time.

                                 Our special agents also worked in New York for 4 weeks to help the
                                 FBI Terrorist Task Force process the extraordinary volume of
                                 information it has received. Along with law enforcement personnel from
                                 the FBI, the Immigration and Naturalization Service, various Inspector
                                 General organizations, and other federal agencies, our agents conducted
                                 interviews, reviewed documents, and otherwise followed up
                                 investigative leads concerning the September 11 attacks. We expect to
                                 continue our work with the task force through the months to come.

                                 Finally, Commerce OIG is assisting with the government’s efforts to
                                 increase the safety and security of U.S. air travel by temporarily
                                 providing investigative personnel to augment the FAA’s Federal Air
                                 Marshal program.


                                 NOAA Administrative Officer Is
                                 Convicted of Embezzlement

                                 On September 28, 2001, a former NOAA administrative officer was
                                 convicted in U.S. district court for the Western District of Missouri of
                                 one felony count of violating 18 USC §641, having embezzled more
                                 than $33,000 from the government over a period of nearly 2 years.
                                 The offense carries a maximum penalty of 10 years’ imprisonment and a
                                 $250,000 fine. Under the terms of a plea agreement, the defendant
                                 agreed to make full restitution of the amount embezzled and refrain from
                                 seeking further employment with the Department of Commerce.

                                 The plea resulted from an OIG investigation in which we established
                                 that, in his capacity as administrative officer, the former employee had
                                 written numerous checks on a government account and deposited them




Commerce OIG Semiannual Report                     78                                     September 2001
Investigative Highlights

into his personal account after altering the names of payees and
falsifying underlying invoices and receipts. As of the end of this
reporting period, a date for sentencing had not been set. (Denver
Field Office of Investigations)


Former Employee Receives Prison Sentence for
Personal Use of Government Purchase Card

In our last semiannual report (see page 81), we detailed the theft
conviction of a former employee of the Office of Acquisition
Management who made nearly $50,000 in inappropriate charges on her
government purchase card—buying clothing, jewelry, and other luxury
items, and paying her rent and fees for various personal services. On
April 20, 2001, the defendant was sentenced in U.S. district court for
the District of Columbia. She received 6 months’ imprisonment,
followed by 2 months’ home detention and 3 years’ probation, and was
ordered to make restitution of the full amount of the government’s loss.
(Washington Field Office of Investigations)


Contract Employee Is Sentenced
for Theft of Government Property

A former USPTO contract employee convicted in January 2001 of
using a government purchase card to make nearly $700 worth of
personal charges (see March 2001 issue, page 81) was sentenced on
April 10, 2001, in U.S. district court for the Eastern District of Virginia.
She received 1 year probation, 100 hours of community service, and a
$1,400 fine. She was also ordered to make restitution to the
government for the full amount of its loss. (Silver Spring Field Office
of Investigations)




 Commerce OIG Semiannual Report                                79              September 2001
                                                                     Investigative Highlights



                                 Conspiracy to Falsify Payroll
                                 Records Ends in Two Convictions

                                 During this reporting period, a former NOAA employee was sentenced
                                 in U.S. district court for the District of Columbia on her previous
                                 conviction for conspiracy to defraud the government. In this case, the
                                 former employee had arranged to falsify payroll records that enabled a
                                 second employee to receive more than $9,800 in pay to which she was
                                 not entitled. The second employee then paid $1,500 of the illicit
                                 proceeds to the defendant (see March 2001 issue, pages 81-82). On
                                 May 31, 2001, the defendant was sentenced to 5 years’ probation and
                                 50 hours of community service, and was ordered to make restitution to
                                 the government in the amount of $9,800. In accordance with the terms
                                 of a plea agreement, the coconspirator pleaded guilty to one count of
                                 conspiracy on July 3, 2001; she was scheduled for sentencing in
                                 October 2001. (Silver Spring Field Office of Investigations)


                                 NOAA Employee Receives 30-Day Suspension
                                 for Misuse of Government-Leased Space

                                 A senior NOAA employee was suspended for 30 days after an OIG
                                 investigation revealed that, for approximately 9 months, he parked his
                                 personal vehicle in commercial garage space leased for the use of
                                 official vehicles while the government vehicles were parked on the street
                                 or elsewhere. (Silver Spring Field Office of Investigations)




Commerce OIG Semiannual Report                     80                                    September 2001
Office of Inspector General

Audit Resolution and Follow-up

The 1988 amendments to the Inspector General Act require us to
present in this report those audits issued before the beginning of the
reporting period (April 1, 2001) for which no management decision had
been made by the end of the period (September 30, 2001). For this
past 6-month period, two financial assistance audits of cooperative
agreements remain unresolved: one for ITA and the other for NIST.

Department Administrative Order 213-5, Audit Resolution and Follow-
up, provides procedures for management to request modifications to an
approved audit action plan, or for a financial assistance recipient to
appeal an audit resolution determination. The table below summarizes
modification and appeal activity during the reporting period.




                                  Audit Resolution Follow-up


                 Report Category                       Modifications     Appeals



         Actions Pending (April 1, 2001)                      0            7



         Submissions                                          0           14



         Decisions                                            0            7


         Actions Pending (September 1, 2001)                  0           14




 Commerce OIG Semiannual Report                          81                    September 2001
                                                     Reporting Requirements



                                                INDEX
  The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for semiannual
  reports. The requirements are listed below and indexed to the applicable pages of this report.


           Section                                           Topic                              Page

 4(a)(2)                  Review of Legislation and Regulations                                   83

 5(a)(1)                  Significant Problems, Abuses, and Deficiencies                       25-80

 5(a)(2)                  Significant Recommendations for Corrective Action                    25-80

 5(a)(3)                  Prior Significant Recommendations Unimplemented                         83

 5(a)(4)                  Matters Referred to Prosecutive Authorities                          77-80

 5(a)(5) and 6(b)(2)      Information or Assistance Refused                                        84

 5(a)(6)                  Listing of Audit Reports                                              91-94

 5(a)(7)                  Summary of Significant Reports                                        25-80

 5(a)(8)                  Audit Reports—Questioned Costs                                           88

 5(a)(9)                  Audit Reports—Funds To Be Put to Better Use                             89

 5(a)(10)                 Prior Audit Reports Unresolved                                   42, 58, 84

 5(a)(11)                 Significant Revised Management Decisions                                 84

 5(a)(12)                 Significant Management Decisions with Which the OIG Disagreed            85

The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
to report on instances and reasons when an agency has not met the dates of its remediation plan. We
discuss this matter in the March 2002 issue as part of our financial statement audit reporting.




Commerce OIG Semiannual Report                          82                                  September 2001
Reporting Requirements



Section 4(a)(2): Review of Legislation
and Regulations

This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that
agency’s programs and operations. Based on this review, the Inspector
General is required to make recommendations in the semiannual report
concerning the impact of such legislation or regulations on the economy
and efficiency of the management of programs and operations
administered or financed by the agency or on the prevention and
detection of fraud and abuse in those programs and operations.
Comments concerning legislative and regulatory initiatives affecting
Commerce programs are discussed, as appropriate, in relevant sections
of the report.

Section 5(a)(3): Prior Significant Recommendations
Unimplemented

This section requires identification of each significant recommendation
described in previous semiannual reports for which corrective action
has not been completed. Section 5(b) requires that the Secretary
transmit to the Congress statistical tables showing the number and value
of audit reports for which no final action has been taken, plus an
explanation of the reasons why such action has not occurred, except
when the management decision was made within the preceding year.

To include a list of all significant unimplemented recommendations in
this report would be duplicative, costly, unwieldy, and of limited value
to the Congress. Any list would have meaning only if explanations
detailed whether adequate progress is being made to implement each
agreed-upon corrective action. Also, as this semiannual report was
being prepared, management was in the process of updating the
Department’s Audit Tracking System as of September 30, 2001, based
on annual status reports due from the bureaus in mid-October. An
accurate database was therefore not available to OIG for reference
here. However, additional information on the status of any audit
recommendations can be obtained through OIG’s Office of Audits.




 Commerce OIG Semiannual Report                             83             September 2001
                                                                   Reporting Requirements



                                 Sections 5(a)(5) and 6(b)(2): Information or
                                 Assistance Refused

                                 These sections require a summary of each report to the Secretary when
                                 access, information, or assistance has been unreasonably refused or not
                                 provided. There were no such instances during this semiannual period,
                                 and no reports to the Secretary.

                                 Section 5(a)(10): Prior Audit Reports Unresolved

                                 This section requires a summary of each audit report issued before the
                                 beginning of the reporting period for which no management decision has
                                 been made by the end of the reporting period (including the date and
                                 title of each such report), an explanation of why such decision has not
                                 been made, and a statement concerning the desired timetable for
                                 delivering a decision on each such report.

                                 As of September 30, 2001, two financial assistance audits relating to
                                 cooperative agreements were in this category—one for ITA and the
                                 other for NIST. The audit resolution proposals requested reinstatement
                                 of questioned costs. OIG disagreed with this approach.

                                 Section 5(a)(11): Significant Revised Management
                                 Decisions

                                 This section requires an explanation of the reasons for any significant
                                 revised management decision made during the reporting period.
                                 Department Administrative Order 213-5, Audit Resolution and
                                 Follow-up, provides procedures for revising a management decision.
                                 For performance audits, OIG must be consulted and must approve in
                                 advance any modification to an audit action plan. For financial
                                 assistance audits, OIG must concur with any decision that would change
                                 the audit resolution proposal in response to an appeal by the recipient.

                                 The decisions issued on the seven appeals of audit-related debts were
                                 finalized with the full participation and concurrence of OIG.




Commerce OIG Semiannual Report                     84                                   September 2001
Reporting Requirements



Section 5(a)(12): Significant Management Decisions
with Which OIG Disagreed

This section requires information concerning any significant management
decision with which the Inspector General disagrees.

Department Administrative Order 213-5 provides procedures for
elevating unresolved audit recommendations to higher levels of
Department and OIG management, including their consideration by an
Audit Resolution Council. During this period, no audit issues were
referred to the council.




 Commerce OIG Semiannual Report                            85             September 2001
                                                              Statistical Highlights

                                         Audit and Inspection
                                         Statistical Highlights

                  Questioned costs this period                                 $3,893,825

                  Value of audit recommendations made
                  this period that funds be put to better use                  $6,549,846

                  Value of audit recommendations agreed
                  to this period by management                                 $6,574,879

                  Value of inspection recommendations made
                  this period that funds be put to better use                              $0



                                              Investigative
                                          Statistical Highlights

                   Matters referred for prosecution                                       6
                   Indictments and informations                                           2
                   Convictions                                                            2
                   Personnel actions*                                                     5
                   Fines, restitutions, judgments, and
                   other civil and administrative recoveries                      $63,715
                * Includes removals, suspensions, reprimands, demotions, reassignments, and resignations
                   or retirements in lieu of adverse action.




                                         Allegations Processed
                                         by OIG Investigators
                                        Accepted for investigation                            19
                  OIG Hotline
                                        Referred to operating units                           29
                  (202) 482-2495        Evaluated but not accepted for
                  (800) 482-5197        investigation or referral                             54

                hotline@oig.doc.gov     Total                                              102

                 Note: Numerous other allegations and complaints were forwarded to the appropriate
                      federal and nonfederal investigative agencies.


Commerce OIG Semiannual Report                                 86                                          September 2001
Tables and Appendixes



    T ABLES                                                                                             PAGE

    1. Audits with Questioned Costs                                                                        88

    2. Audits with Recommendations That Funds Be Put to Better Use                                         89


    A PPENDIXES
    A. Office of Inspector General Reports                                                                 90

        A-1. Performance Audits                                                                            91

        A-2. Inspections                                                                                   92

        A-3. Financial-Related Audits                                                                    93-94

    B. Processed Reports                                                                                   95

        B-1. Processed Financial-Related Audits                                                            96


    D EFINITIONS
    A questioned cost is a cost that is questioned by the OIG because of (1) an alleged violation of a provision
    of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
    expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
    documentation; or (3) a finding that an expenditure of funds for the intended purpose is unnecessary or
    unreasonable.

    An unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate
    documentation. Questioned costs include unsupported costs.

    A recommendation that funds be put to better use refers to a recommendation by the OIG that funds
    could be used more efficiently if Commerce management took action to implement and complete the
    recommendation, including (1) reductions in outlays; (2) deobligation of funds from programs or operations;
    (3) withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not
    incurred by implementing recommended improvements related to Commerce, a contractor, or a grantee; (5)
    avoidance of unnecessary expenditures identified in preaward reviews of contracts or grant agreements; or
    (6) any other savings that are specifically identified.

    A management decision refers to management’s evaluation of the findings and recommendations included
    in the audit report and the issuance of a final decision by management concerning its response.




Commerce OIG Semiannual Report                                  87                                       September 2001
                                                                    Audits with Questioned Costs
                                                                                         Table 1


                                                                     Questioned       Unsupported
Report Category                                       Number           Costs            Costs




A. Reports for which no management decision              18         $6,744,585         $2,782,829
   had been made by the commencement of
   the reporting period

B. Reports issued during the reporting period1           15          3,893,825            420,330

      Total reports (A+B) requiring a management        33          10,638,410          3,203,159
      decision during the reporting period

C. Reports for which a management decision               16          6,448,651          2,695,869
    was made during the reporting period2

      i. Value of disallowed costs                                   4,578,996          1,007,396

     ii. Value of costs not disallowed                               1,880,925          1,688,473

D. Reports for which no management decision              17          4,189,759            507,290
   had been made by the end of the reporting
   period




Notes:

1
    Three audit reports included in this table are also included in the reports with recommendations that funds be put
    to better use (see table 2). However, the dollar amounts do not overlap.

2
    In Category C, lines i and ii do not always equal the total on line C because resolution may result in values
    greater than the original recommendations.




     Commerce OIG Semiannual Report                            88                                     September 2001
Audits with Recommendations
That Funds Be Put to Better Use
Table 2


Report Category                                       Number            Value




A. Reports for which no management decision                8          $7,638,948
   had been made by the commencement of
   the reporting period

B. Reports issued during the reporting period1             13          6,549,846

      Total reports (A+B) requiring a management           21         14,188,794
      decision during the reporting period

C. Reports for which a management decision                 8           7,638,948
   was made during the reporting period2

      i. Value of recommendations agreed to                            1,995,883
         by management

     ii. Value of recommendations not agreed                           5,643,127
         to by management

D. Reports for which no management decision               13          6,549,846
   had been made by the end of the reporting
   period




Notes:

1
    Three audit reports included in this table are also included in the reports with questioned costs (see table 1).
    However, the dollar amounts do not overlap.

2
    In Category C, lines i and ii do not always equal the total on line C because resolution may result in values
    greater than the original recommendations.




    Commerce OIG Semiannual Report                               89                                      September 2001
                                             Office of Inspector General Reports
                                                                     Appendix A

Type                                Number           Appendix


Performance Audits                     3               A-1

Inspections                           10               A-2

Financial-Related Audits              18               A-3

Total                                 31




   Commerce OIG Semiannual Report               90                    September 2001
Performance Audits
Appendix A-1

                                                                                Funds To
                                                                                Be Put to
Agency        Subject                                     Number   Date         Better Use



EDA           Trade Adjustment Assistance Centers’   STL-14322     09/01           N/A
              Internal Controls Over Consultant
              Services Need Strengthening

NTIA          Table Mountain Research Site           DEN-11928     09/01           N/A
              Needs Attention

O/S           Departmental Fund Management           FSD-14271     09/01          N/A
              Practices Need Improvement




 Commerce OIG Semiannual Report                      91                    September 2001
                                                                                        Inspections
                                                                                       Appendix A-2
                                                                                               Funds To
                                                                                               Be Put to
Agency       Subject                                             Number          Date          Better Use



BXA          Annual Follow-Up Report on Previous                IPE-14246(2)   09/01               --
             Export Control Recommendations, as
             Mandated by the National Defense
             Authorization Act for Fiscal Year 2000

ESA          Additional Security Measures Needed for            OSE-12754      09/01               --
             Advance Retail Sales Economic Indicator

NOAA         San Angelo Weather Forecast Office Performs        IPE-13531      09/01               --
             Its Core Responsibilities Well, but Office
             Management and Regional Oversight Need
             Improvement

             Missoula Weather Forecast Office Generally         IPE-14225      09/01               --
             Provides Quality Service to Its County
             Warning Area

O/S          Implementation of Commerce’s Trade Mission          IPE-13934     09/01               --
             Policy Has Strengthened Management of the
             Missions, but More Improvements Can Be
             Made

             Independent Evaluation of the Department’s         OSE-14384(1)   09/01               --
             Information Security Program Under the
             Government Information Security Reform Act

             Program for Designating Positions According        OSE-14486      09/01               --
             to Their Risk and Sensitivity Needs To Be
             Updated and Strengthened

             Improvements Made in CAMS Contract                 OSE-14086      09/01               --
             Management but Additional Actions Needed

             Use of Internet “Cookies” and “Web Bugs”           OSE-14257      09/01               --
             on Commerce Web Sites Raises Privacy
             and Security Concerns

USPTO        Independent Evaluation of the Department’s         OSE-14384(2)   09/01               --
             Information Security Program Under the
             Government Information Security Reform Act


  Commerce OIG Semiannual Report                           92                             September 2001
Financial-Related Audits
Appendix A-3
                                                                                     Funds To
                                                     Questioned     Unsupported      Be Put to
Agency/Auditee                  Number      Date       Costs            Costs        Better Use

EDA

Monterey County’s Contractor    STL-13442   07/01         N/A           N/A            $350,000
Revolving Loan Program, CA

Panhandle Area Council, ID      STL-14141   07/01         N/A           N/A            $350,000

Hennepin and Ramsey             DEN-13740   07/01         N/A           N/A            $880,954
Counties, NM

Affiliated Tribes of            STL-14142   08/01         N/A           N/A              N/A
Northwest Indians, WA

City of Lubbock, TX             DEN-13742   09/01         N/A           N/A          $1,271,250

Cumberland Plateau Planning     ATL-14220   09/01         N/A           N/A            $503,417
District Commission, VA

Gulf Coast Economic             ATL-14300   09/01         N/A          N/A             $500,000
Development District, TX

Eastern Oklahoma                ATL-14301   09/01         N/A          N/A             $350,000
Development District

Miami Area Economic             ATL-14299   09/01         N/A          N/A             $265,250
Development Service, Inc., OK

Town of Jonesborough,           ATL-13966   09/01        N/A           N/A             $434,218
Tennessee, and Storytelling
Foundation International

City of Magnolia, AR            DEN-13739   09/01        N/A           N/A             $155,091

The Cities of East Chicago,     DEN-14156   09/01        $37,500       N/A               N/A
Gary, and Hammond, IN

Southeast Idaho Council         STL-14122   09/01        N/A           N/A             $255,000
of Governments

Beaumont Redevelopment          STL-14258   09/01        $159,737      N/A             $623,484
Agency, CA



 Commerce OIG Semiannual Report                     93                            September 2001
                                                                      Financial-Related Audits
                                                                       Appendix A-3 (Continued)


                                                                                              Funds To
                                                            Questioned     Unsupported        Be Put to
Agency/Auditee                     Number      Date           Costs          Costs            Better Use


NIST
Sun Company, Inc., PA              DEN-14032   09/01          $182,633       $8,185               N/A

Connecticut Technology             DEN-13992   09/01          $529,582        N/A                N/A
Associates, Inc.

Northeastern Pennsylvania          DEN-14046   09/01           $63,256        N/A                N/A
Industrial Resource Center, Inc.

Wisconsin Center for               DEN-14103   09/01            N/A           N/A              $641,182
Manufacturing and
Productivity, Inc.




   Commerce OIG Semiannual Report                      94                                September 2001
Processed Reports
Appendix B

The Office of Inspector General reviewed and accepted 159 financial-related audit
reports prepared by independent public accountants and local, state, and other fed-
eral auditors. The reports processed with questioned costs, recommendations that
funds be put to better use, and/or nonfinancial recommendations are listed in Appen-
dix B-1.




Agency                                                                Audits


Economic Development Administration                                      50

Minority Business Development Agency                                     1

National Institute of Standards and Technology                           61*

National Oceanic and Atmospheric Administration                           8

National Telecommunications and Information Administration                4

Multiagency                                                              30

Agency Not Identified                                                     5

Total                                                                   159


*Includes 54 ATP program-specific audits.




 Commerce OIG Semiannual Report                             95                         September 2001
                                                Processed Financial-Related Audits
                                                                     Appendix B-1


                                                                      Questioned     Unsupported
Agency/Auditee                        Number                  Date       Costs         Costs


EDA

City of East Palo Alto, CA            ATL-09999-1-0788        09/01     $558,217             N/A

Town of Talihina, OK                  ATL-09999-1-0799        09/01     $177,873             N/A

Crawford County                       ATL-09999-1-0881        09/01      $22,708             N/A
Development Corporation, IA

Terrebonne Parish                     ATL-09999-1-0914        09/01     $673,800             N/A
Consolidated Government, LA


NIST

E.I. DuPont de Nemours                ATL-09999-1-0195        09/01     $974,324           $16,756
and Company,
Engineering Polymers, DE

Supertex, Inc., CA                    ATL-09999-1-0685        09/01      $23,072              $145

BCL Computers, CA                     ATL-09999-1-0765        09/01      $60,830             N/A

BusinessBots, Inc., CA                ATL-09999-1-0770        09/01      $53,214           $22,540

NonLinear Dynamics Incorporated, MI   ATL-09999-1-0682        09/01     $305,905          $301,530



NOAA

State of Louisiana                    ATL-09999-1-0791        09/01     $71,174            $71,174




 Commerce OIG Semiannual Report                          96                        September 2001
Def initions:
Definitions:                      T ypes of OIG R
                                                Ree vie ws
                                                    views




                                           OIG Reviews
  Audits                                                  Inspections
  Performance Audits—These audits look at the             Operational Inspections—These are reviews of
  efficiency, effectiveness, and economy of the           an activity, unit, or office, or a contractor or
  Department’s programs, activities, and information      organization that receives funds from the
  technology systems. They may check a unit’s             Department. They focus on an organization, not a
  compliance with laws and regulations, and evaluate      whole program, and are designed to give agency
  its success in achieving program objectives.            managers timely information about operations,
                                                          including current and foreseeable problems.
  Financial-Related Audits—These audits review
  the Department’s contracts, grants, cooperative         Program Evaluations—These are in-depth reviews
  agreements, loans, and loan guarantees. They            of specific management issues, policies, or
  assess compliance with laws, regulations, and           programs.
  award terms; adequacy of accounting systems and
  internal controls; allowance of costs; and the degree
  to which a project achieved the intended results.       Systems Evaluations—These are reviews of
                                                          system development, acquisitions, operations, and
                                                          policy in order to improve efficiency and
  Financial Statements Audits—These audits                effectiveness. They focus on Department-wide
  determine whether a reporting entity’s financial        computer systems and other technologies and
  statements are presented fairly in accordance with      address all project phases, including business process
  generally accepted accounting principles, the entity    reengineering; system definition; system
  has an internal control structure that provides         development, deployment, operations, and
  reasonable assurance of achieving the control           maintenance.
  objectives set forth by OMB, and the entity com-
  plied with laws and regulations that could have a
  direct and material effect on the financial state-
  ments, the Federal Financial Management Improve-
  ment Act, and other laws as prescribed by OMB.




Commerce OIG Semiannual Report                            97                                    September 2001
                                                                                                                          Acronyms




A.C.E..........................................................................................................Accuracy and Coverage Evaluation
ACOTR ......................................................................Alternate Contracting Officer’s Technical Representative
A&R...................................................................................................Advances and Reimbursements Program
ATP...................................................................................................................Advanced Technology Program
BXA................................................................................................................Bureau of Export Administration
CAMS..................................................................................... Commerce Administrative Management System
CFIUS..............................................................................Committee on Foreign Investment in the United States
CIO...........................................................................................................................Chief Information Officer
DAO..............................................................................................................Department Administrative Order
EDA.......................................................................................................Economic Development Administration
ESA......................................................................................................Economics and Statistics Administration
ESU.....................................................................................................................Evolutionarily Significant Unit
FAA..................................................................................................................Federal Aviation Administration
FMFIA...............................................................................................Federal Managers’ Financial Integrity Act
GAO........................................................................................................................General Accounting Office
G&B............................................................................................................................Gifts and Bequests Fund
GISRA.........................................................................................Government Information Security Reform Act
GPRA...............................................................................................Government Performance and Results Act
GSA.................................................................................................................General Services Administration
GWAC..........................................................................................................Governmentwide Agency Contract
IA....................................................................................................................................Import Administration
IG..........................................................................................................................................Inspector General
IT..................................................................................................................................Information Technology
ITA................................................................................................................International Trade Administration
MASC..................................................................................................Mountain Administrative Support Center
MAF..................................................................................................................................Master Address File




     Commerce OIG Semiannual Report                                               98                                                  September 2001
Acronyms




MBDA.................................................................................................Minority Business Development Agency
MEP..........................................................................................................Manufacturing Extension Partnership
NESDIS...............................................................National Environmental Satellite Data and Information Service
NIST...........................................................................................National Institute of Standards and Technology
NMFS............................................................................................................National Marine Fisheries Service
NOAA...................................................................................National Oceanic and Atmospheric Administration
NTIA.....................................................................National Telecommunications and Information Administration
NTIS......................................................................................................National Technical Information Service
NWS.........................................................................................................................National Weather Service
OBL.........................................................................................................................Office of Business Liaison
OCS......................................................................................................................Office of Computer Services
OGC.........................................................................................................................Office of General Counsel
OHRM..............................................................................................Office of Human Resources Management
OI.................................................................................................................................Office of Investigations
OIG.........................................................................................................................Office of Inspector General
OMB............................................................................................................Office of Management and Budget
OPM..............................................................................................................Office of Personnel Management
OSY......................................................................................................................................Office of Security
RLF..................................................................................................................................Revolving Loan Fund
TA............................................................................................................................Technology Administration
TAAC........................................................................................................Trade Adjustment Assistance Center
TIGER................................................................Topologically Integrated Geographic Encoding and Referencing
US&FCS..................................................................................................U.S. and Foreign Commercial Service
USPTO.........................................................................................................U.S. Patent and Trademark Office
WCF................................................................................................................................Working Capital Fund
WFO...........................................................................................................................Weather Forecast Office




     Commerce OIG Semiannual Report                                              99                                                 September 2001
                                 Office of Inspector General
                                     Organization Chart

                                                                        Inspector
                Office of                                                General                                           Office of
             Compliance and
                                                                         Deputy                                            Counsel
             Administration
                                                                    Inspector General

               Office of
                                                                                                                       Office of
           Inspections and
                                                                                                                  Systems Evaluation
         Program Evaluations



                               Office of                                                                       Office of
                                Audits                                                                      Investigations



Headquarters            Financial Statements                 Regional              Financial Fraud            Investigative              Investigative
   Audits                      Audits                         Audits                    Unit                   Operations                  Services




                                                    OIG Points of Contact
Inspector General .................................. (202)       482-4661    Office of Counsel .................................... (202) 482-5992
Legislative and                                                              Office of Inspections and Program Eval. . (202) 482-2754
Intergovernmental Affairs ....................... (202)          482-3052    Office of Investigations ............................ (202) 482-0934
Office of Audits ....................................... (202)   482-1934    Office of Systems Evaluation ................. (202)482-6186
Office of Compliance and Admin. .......... (202)                 482-0231    Media Inquiries ........................... ......... (202) 482-5992



REQUESTS FOR REPORTS:                                                       OIG HOTLINE:
Telephone ....................................... (202) 482-0231            Telephone ....................................... (202) 482-2495
TDD Number .................................. (202) 482-4948                                                              or (800) 424-5197
Internet E-Mail ................................. reports@oig.doc.gov       Internet E-Mail ................................. hotline@oig.doc.gov



                                                             OIG Internet Home Page
                                                   http://www.oig.doc.gov
